<html>
<title> - H.R. 3125, THE RADIO SPECTRUM INVENTORY ACT, AND H.R. 3019, THE SPECTRUM RELOCATION IMPROVEMENT ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    H.R. 3125, THE RADIO SPECTRUM INVENTORY ACT, AND H.R. 3019, THE 
              SPECTRUM RELOCATION IMPROVEMENT ACT OF 2009

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                           Serial No. 111-89


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
74-860                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     7
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     9
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    10
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    11
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................   125
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   127

                               Witnesses

Dale Hatfield, Adjunct Professor, Interdisciplinary 
  Telecommunications Program, University of Colorado at Boulder..    12
    Prepared statement...........................................    15
Steve Largent, President and Ceo, CTIA--The Wireless Association.    25
    Prepared statement...........................................    27
Michael Calabrese, Vice President and Director, Wireless Future 
  Program, New America Foundation................................    33
    Prepared statement...........................................    35
Gordon H. Smith, President and CEO, National Association of 
  Broadcasters...................................................    52
    Prepared statement...........................................    54
Ray O. Johnson, Ph.D., Senior Vice President and Chief Technology 
  Officer, Lockheed Martin Corporation...........................    75
    Prepared statement...........................................    77
Thomas Stroup, Chief Executive Officer, Shared Spectrum Company..    85
    Prepared statement...........................................    87

                           Submitted material

Letter of December 14, 2009, from Association of Old Crows to 
  Committee, submitted by Mr. Terry..............................   129


    H.R. 3125, THE RADIO SPECTRUM INVENTORY ACT, AND H.R. 3019, THE 
              SPECTRUM RELOCATION IMPROVEMENT ACT OF 2009

                              ----------                              


                       TUESDAY, DECEMBER 15, 2009

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boucher, Markey, Stupak, 
Doyle, Inslee, Matsui, Christensen, Castor, Space, McNerney, 
Dingell, Waxman (ex officio), Stearns, Upton, Shimkus, Buyer, 
Bono Mack, Walden, Terry and Blackburn.
    Staff present: Roger Sherman, Chief Counsel; Tim Powderly, 
Counsel; Amy Levine, Counsel; Shawn Chang, Counsel; Greg Guice, 
Counsel; Pat Delgado, Chief of Staff (Waxman); Sarah Fisher, 
Counsel; Neil Fried, Republican Counsel; Will Carty, Republican 
Professional Staff; and Garrett Golding, Republican Legislative 
Analyst.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The subcommittee will come to order.
    This morning the subcommittee convenes a legislative 
hearing on two measures related to the availability of the 
wireless spectrum, which is essential to meeting our future 
needs for mobile communications services.
    The movement of personal communications to mobile services 
is both dramatic and accelerating. Earlier this year it was 
announced that for the first time, the number of homes having 
only a cell phone and no landline service now exceeds the 
number of homes having only a landline and no cellular service. 
At the end of 2008, there were approximately 270 million 
wireless subscribers in the Nation including an estimated 40 
million active users of mobile Internet services. Daily, new 
attractive and useful applications are added to wireless 
services and data rates continue to increase as consumers 
require faster access to mobile communications. As more and 
more Americans use data-intensive smart phones and as services 
like mobile video emerge, the demand for spectrum to support 
these applications and devices will continue to grow 
dramatically.
    Today, the subcommittee continues its examination of 
possible ways in which federal telecommunications policy can be 
altered in order to meet these challenges with the goal of 
enhancing the consumer experience and facilitating the future 
growth of mobile services.
    In July, I was pleased to join with Chairman Waxman, full 
Committee Ranking Member Barton and Subcommittee Ranking Member 
Stearns in introducing H.R. 3125, the Radio Spectrum Inventory 
Act. That measure, now before the subcommittee, would direct 
the NTIA and the FCC to undertake a comprehensive survey of the 
Nation's spectrum and develop an inventory of each spectrum 
band in the U.S. table of frequency allocations between 225 
megahertz and 10 gigahertz. The inventory would include the 
identity of both federal and non-federal users of spectrum and 
the types of services they offer in each spectrum band as well 
as the amount of use in each band on a geographic basis. When 
the inventory is completed, the NTIA and the FCC would create a 
Web site in order to make the information gleaned from the 
inventory available to the public. They would report the 
results of the inventory to the Congress and that report would 
include a description of information that could not be made 
publicly available for national security reasons. It would also 
include a recommendation of which, if any, of the least 
utilized blocks of spectrum should be reallocated for 
commercial uses. The creation of the inventory is an essential 
step in making available more spectrum for commercial and 
wireless services and meeting the extraordinary spectrum 
demands that our Nation will soon face.
    I have also joined our colleagues Jay Inslee and Fred Upton 
in introducing the Spectrum Relocation Improvement Act. This 
measure would address an urgent need which was brought to light 
after the FCC auctioned the advanced wireless spectrum, the AWS 
spectrum, in 2006. While that spectrum was auctioned more than 
3 years ago, the winners of the commercial licenses still do 
not have full access to the spectrum because it has not been 
fully cleared by the government users. The bill that we have 
jointly introduced would hasten the process of clearing federal 
users from spectrum that the government has reallocated for 
commercial purposes. It would require the NTIA to publish the 
transition plan of each federal entity to be relocated after a 
spectrum auction and it would clarify the steps that federal 
spectrum users must take in order to receive payment for their 
relocation cost from the Spectrum Relocation Fund including a 
requirement that the spectrum fully be reallocated and vacated 
by the federal users within one year.
    My goal is to have both the inventory legislation and the 
bill speeding the reallocation of previously auctioned 
government spectrum through the committee and through the House 
at the earliest possible time.
    I want to thank our witnesses for joining us this morning. 
We look forward to your testimony and your views on the future 
demand for wireless spectrum and the ways in which we can take 
constructive steps in order to meet those challenges.
    Mr. Boucher. That concludes my opening statement. I am 
pleased now to recognize the ranking Republican member of our 
subcommittee, the gentleman from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, and thank you, Mr. Chairman. You 
mentioned both of these bills and you have talked about what 
they do, so we are very pleased to have this hearing. I am a 
cosponsor of both of these bills, original cosponsor.
    It is very clear that the United States will need 
additional spectrum to meet the growing demand for wireless 
broadband. In fact, we may be victims of our own success here. 
The United States currently leads the world in wireless. 
Wireless providers have used spectrum to provide U.S. consumers 
with innovative voice and data services. The number of mobile 
voice customers in the United States has surpassed the number 
of wireline customers and the number of mobile broadband 
customers has increased exponentially over the past several 
years. As customers increase the amount of time they spend on 
their mobile devices talking, e-mailing and surfing the 
Internet, cell sites become constrained for capacity. As a 
result, providers need more spectrum, especially in order to 
increase the speed of mobile broadband services. We are facing, 
in the words of the FCC chairman, a looming spectrum crisis.
    For example, a voice call requires approximately 10,000 
bits per second while uploading and downloading video requires 
millions of bits per second. Countries will need 1.3 or 
1,300,000 megahertz of spectrum dedicated for commercial use by 
the year 2015, according to the International 
Telecommunications Union. Yet the United States currently has 
only 500 megahertz allocated and only 50 megahertz in the 
auction pipeline.
    So in order to increase the amount of spectrum available 
for commercial mobile services, the Administration and the FCC 
need to inventory the current uses of spectrum bands, 
especially those below 3 gigahertz that are ideal for mobile 
services. The bottom line is that we need to know who uses 
which spectrum bands and the purposes for which they use such 
bands. Once we have the answers to these questions, the 
government needs to decide whether to reallocate spectrum for 
commercial mobile users.
    If the government is requiring existing spectrum users to 
vacate reallocated bands, the government also needs to 
establish a meaningful process for reallocating incumbent 
users. The process needs to begin sooner rather than later. 
Inventory reallocation and reallocation all take time and 
commercial mobile demand for spectrum is increasing, as I 
mentioned, exponentially.
    Furthermore, one way to make more spectrum available for 
commercial purposes is to use government spectrum more 
efficiently and simply reallocate the spectrum saved. That was 
the idea behind the Commercial Spectrum Enhancement Act, which 
was enacted in 2004. The law is designed to provide funding to 
upgrade the wireless resources of government agencies while 
clearing additional spectrum for commercial use while the CSEA 
government frequencies identified for reallocation are 
auctioned to commercial licensees and the proceeds are used to 
improve the relocating agencies of wireless facilities. 
Pursuant to the CSEA, the FCC held the advance wireless service 
one auction in 2006. Of the $13.7 billion raised by the AWS 
auction, approximately $1 billion has been spent to reallocate 
the wireless operations of 12 federal agencies. The 
reallocation procedures outlined in the CSEA worked well in 
most cases but some problems have cropped up.
    For example, T Mobile paid $4.2 billion to build a 3G 
network. The Department of Defense and the Drug Enforcement 
Agency are behind schedule in clearing some of the spectrum. 
However, because of unforeseen costs and complexities in their 
moves which have been compounded by the confidential nature of 
some of the agencies' activities, problems like these have 
prevented the bidders from fully realizing the benefits of 
their investment in the time frames originally promised and may 
discourage participation in future reallocation auctions.
    H.R. 3019 will make the process more efficient. The goal is 
to better coordinate reallocation so that perspective 
commercial bidders have increased confidence to bid on the 
cleared spectrum. This not only helps the commercial bidders 
but also the reallocating agencies since they will have 
increased revenue from the auction and a better planned 
transition.
    Thank you, Mr. Chairman, for holding this important 
hearing. I look forward to hearing from the witnesses.
    Mr. Boucher. Thank you very much, Mr. Stearns.
    The chairman of the full committee, the gentleman from 
California, Mr. Waxman, is recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. I want to thank you 
for holding this important legislative hearing on two bills 
that if adopted will create incentives for efficient spectrum 
utilization and enhance our ability to develop forward-looking 
spectrum policies. Ongoing developments in wireless broadband 
technology along with increased consumer demand have raised 
questions about the sufficiency of current spectrum allocations 
for wireless communication service. Some experts estimate that 
the wireless industry in the United States needs an additional 
150 megahertz of spectrum to simply keep up with the explosion 
in wireless data usage and to remain competitive with other 
nations.
    Before we can start identifying bands of spectrum that 
might be made available for these new services, however, we 
need to understand how existing spectrum is allocated and 
utilized. In simple terms, we need better information about 
spectrum usage by federal and non-federal entities.
    Accordingly, in July of this year, a bipartisan group of 18 
Energy and Commerce Committee members introduced H.R. 3125, the 
Radio Spectrum Inventory Act. This legislation represents a 
critical first step in developing a forward-looking spectrum 
policy. H.R. 3125 is simply about making spectrum use and 
allocation transparent. It would direct the National 
Telecommunications Information Administration and the Federal 
Communications Commission to develop a publicly available 
inventory of users and usage in the most valuable spectrum 
bands.
    The bill also directs the agencies to examine whether there 
is underutilized spectrum that might be reallocated for more 
efficient uses. Of course, any comprehensive look at spectrum 
must be sensitive to military uses and the need to protect 
information about such uses. The bill therefore establishes a 
procedure by which information pertaining to national security 
will continue to be safeguarded. The committee will continue to 
work with the Department of Defense to make sure that we are 
sensitive to any concerns regarding our national defense.
    I would also like to express my general support for H.R. 
3019, the Spectrum Relocation Improvement Act of 2009. I 
commend Representatives Inslee and Upton for introducing this 
thoughtful legislation to improve the current spectrum 
relocation process by increasing the flow of information and 
resources as well as enhancing transparency.
    Thank you again, Mr. Chairman, for holding this hearing. I 
look forward to working with you as we move these important 
bills forward.
    Mr. Boucher. Thank you very much, Chairman Waxman.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
2 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and I appreciate the 
hearing.
    I would say that we need to be working on D block, D block, 
D block. If we can't get the D block right, how in the heck are 
we going to do other allocations of other spectrums? And my 
focus on the D block is, as everyone knows, being involved with 
the E-911 caucus, is emergency services and communication, and 
hopefully my colleague Anna will show and even Jane Harman and 
we will say shame on us if we have a next disaster and we are 
not ready to communicate effectively. Shame on us if we have 
another 9/11. Shame on us if we have another Katrina and we 
have sheriff departments not talking to firefighters, we have 
firefighters not talking to the National Guard.
    So I appreciate this focus, and we all understand the 
importance of having an inventory but if we can't get the D 
block right in a timely manner, who are we kidding ourselves? 
So I would hope, Mr. Chairman, and the full committee chairman 
that we would really work on the parameters to push for 
appropriate and proper auction in which we get all the 
benefits, we bring in additional revenue but we also develop 
the revenue streams which will allow us to provide grants and 
money to our first-line responders to get this one important 
aspect of our homeland security issues and debates in line, and 
I yield back my time.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    The chairman emeritus of the full Energy and Commerce 
Committee, the gentleman from Michigan, Mr. Dingell, is 
recognized for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman, and thank you for 
convening today's hearing on H.R. 3125, the Radio Spectrum 
Inventory Act, and H.R. 3019, the Spectrum Relocation 
Improvement Act of 2009. These two bills, of which I am an 
original cosponsor, will aid the federal Administration's 
allocation of spectrum, a commodity of increasing importance, 
especially given recent advances in mobile broadband services. 
Like all the rest of us, I am concerned about the allocation 
about the future and also about what we have done so far and 
whether it has contributed to the proper use of the spectrum 
for the future and for all of our people.
    These two pieces of legislation are complementary to the 
Federal Communications Commission's duty to present to the 
Congress a national broadband plan as mandated under the 
American Recovery and Reinvestment Act. To be certain, the 
success of the development of such a plan and the 
implementation of its recommendations will be facilitated in no 
mean degree by a clear and better understanding of the spectrum 
available for use and a better and a more efficient process by 
which to allocate it for commercial use. This I believe will be 
accomplished in large part by enactment of the bills pending 
for the committee's consideration today.
    With this in mind, I welcome our witnesses and look forward 
to hearing their views on the legislation before us. In 
particular, I hope they will engage in a frank discussion about 
the relationship between H.R. 3125, H.R. 3019 and proposals 
currently circulating in the FCC to reallocate spectrum from 
over-the-air television broadcasters to mobile communication 
providers as a part of the national broadband plan.
    Thank you for your courtesy, Mr. Chairman, and I commend 
you again for this hearing and the foresight that you are 
showing with it. I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Chairman Dingell.
    The gentleman from Oregon, Mr. Walden, is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman.
    First of all, thank you for holding a legislative hearing 
on these two bills. I think that is really important in the 
improvement of our process to have this oversight before we 
mark it up.
    I want to welcome my Senator, Gordon Smith, who has taken 
over the reins at the National Association of Broadcasters. I 
am still his Congressman, even if he is not now my Senator, but 
we have been friends and colleagues in the legislative arena in 
Oregon and here for many years and we welcome you at the NAB, 
and now that I have sold our broadcast stations and you have 
gone to the broadcasters, I am going to go into pea packing.
    I want to point out a couple of things. First of all, I 
concur with my colleague from Illinois, Mr. Shimkus, on the D 
block issue. We need to resolve that. But I also want to point 
out another issue that has come up related to public safety and 
I am not sure it is going to get spoken to today, and that is 
use of the band by amateur radio operators as well. As we 
evaluate the value of spectrum, understand that when 9/11 
happened, when Katrina happened, when other communication 
systems failed and even any day when there is a hurricane or a 
disaster anywhere in the world, it is frequently the amateur 
radio operators who step to the fore with their own equipment 
and provide the emergency communication when everything else 
fails. It is hard to put a value on that unless you can put a 
value on saving lives and helping our law enforcement community 
and our rescue community get through really difficult times, so 
they are there when needed all the time and so that needs to be 
a part of what we consider.
    Regarding the FCC's notice, I am very concerned about what 
I am reading regarding Professor Benjamin's comments and his 
paper. He is now a very top advisor to the chairman of the FCC. 
I hope this committee will look at some of the things he has 
had to say including how every dollar of additional cost for 
broadcasters is one less dollar for profit and thus reduces the 
attractiveness of over-the-air broadcasting as a business model 
but regulation would attend to entrench broadcasting in place 
on the spectrum. Then the regulation will not help free up 
spectrum and should be avoided. In other words, he is calling 
for the death of over-the-air free broadcasting, which I think 
is a real abomination, and we will get into that more.
    I know my time is expired, Mr. Chairman, and I look forward 
to hearing from our witnesses.
    Mr. Boucher. Thank you very much, Mr. Walden.
    And the Chair now recognizes the gentleman from 
Pennsylvania, Mr. Doyle, for two minutes.
    Mr. Doyle. Thank you, Mr. Chairman, for holding this 
important hearing. I am going to waive opening statement and 
look forward to hearing from the witnesses.
    Mr. Boucher. Thank you, Mr. Doyle. We will add 2 minutes to 
your questioning time for our panel of witnesses.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 2 minutes.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chair, and thank you for holding 
this hearing. We know how important this is.
    In my State, as we speak, I have got hundreds if not 
thousands of constituents designing these new Internet and 
broadband services of the next generation. It is very important 
to a lot of my neighbors, people I represent. It is important 
to the country as a whole for its job creation possibilities. 
President Obama has recognized broadband infrastructure 
investment has tremendous job potential but we know we are 
going to have to have additional allocation of spectrum for 
commercial use to really reach the fruition of the tremendous 
promise here. And in order to first identify that spectrum, I 
want to commend Chairman Waxman for his inventory bill, which 
is a first step. I am proud to be an original cosponsor and 
look forward to getting that done as a first step.
    But once the spectrum is identified and ready for auction, 
we really have to assure that procedures are in place this time 
to adequately guide the auction process. In the 2007 advance 
wireless services auction, the process and reporting 
requirements were insufficient to appraise the length, 
complexity and size of federal relocation efforts. They also 
failed to ensure a timely transition of spectrum by federal 
agencies and business planning by commercial bidders. It is 
this very problem that the bill that I am prime sponsoring 
seeks to address.
    Fundamentally, our bill will do two things. First, it 
increases the amount and quality of information available to 
potential bidders before an auction occurs, and second, it 
expedites the flow of auction proceeds to the relocating agency 
to keep the relocation process on track. I am convinced that 
this more complete information about the effective federal 
agency systems, the relocation cost estimates and schedules 
will reduce the risk for potential bidders, will ensure timely 
relocation payment and movement by federal agencies and will 
ensure that the next generation of consumer-demanded services 
are delivered. It will not cure the common cold. Otherwise it 
sounds pretty good.
    I want to thank my colleagues, Mr. Upton and Chairman 
Boucher, for their work on advancing this and I look forward to 
moving this so that we can really fulfill the promise of our 
brilliant constituents. Thank you.
    Mr. Boucher. Thank you very much, Mr. Inslee.
    The gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.
    Mr. Terry. Thank you, Mr. Chairman, for holding this 
legislative hearing and I look forward to hearing our 
witnesses. We have to make sure that we do this right and in 
balance with the spectrum that is used in the military. I have 
the pleasure of representing the 55th Wing, which is an 
electronic warfare and information operation out of Offutt Air 
Force Base right outside of Omaha in Bellevue, and I have a 
letter from the Association of Old Crows that set out some of 
the issues that we may have discussing here with the spectrum 
and I would like to offer that letter into the record, Mr. 
Chairman.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. Without objection.
    Mr. Terry. Then last, in our committee memorandum, it 
starts off with the introduction criticizing the Universal 
Service Fund and calling it ineffective, and then the second 
paragraph also starts off with Universal Service Fund. So 
somehow Universal Service Fund is important in this discussion 
and I look forward to your comments on how Universal Service 
Fund affects the spectrum and your usage of it. I yield back.
    Mr. Boucher. Thank you very much, Mr. Terry.
    The gentlelady from California, Ms. Matsui, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Mr. Chairman. Thank you for calling 
this important hearing today. I would also like to thank 
today's witnesses for being with us today.
    We are here today to discuss how we can promote greater 
transparency on spectrum issues for expediting the process in 
which we can allocate additional spectrum in the marketplace. 
According to recent estimates, there are approximately 270 
million wireless subscribers in the United States but that 
number is growing. According to recent reports, the current 
economic recession has increased the number of consumers opting 
for only cell phones over traditional landlines. There is 
concern that the current allocation of spectrum for mobile 
broadband services is inadequate to meet the rapidly growing 
demand. In fact, the FCC recently warned of a potential 
spectrum crisis that could threaten the expansion of broadband 
services. While the DTV transition helped free up more 
spectrum, the need for commercial spectrum capacity will only 
expand as broadband continues to be delivered to more areas.
    To ensure transparency and help ensure we meet demand, 
Chairmen Waxman and Boucher have introduced the Radio Spectrum 
Inventory Act, and Congressmen Inslee and Upton have introduced 
the Spectrum Relocation Improvement Act. I am a cosponsor of 
both pieces of legislation. Moving forward, spectrum 
availability will be key to ensuring competition, improved 
public safety, meeting growing demand for wireless services and 
any proposal going forward should ensure underserved urban 
communities are properly considered.
    I thank you, Mr. Chairman, for holding this important 
hearing today and I yield back the balance of my time.
    Mr. Boucher. Thank you, Ms. Matsui.
    The gentlelady from Tennessee, Ms. Blackburn, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    I want to welcome the panel that is before us today. We are 
delighted that you are here, and I am also delighted, Mr. 
Chairman, that we are talking about legislation that actually 
represents what is a balanced give and take, and that is not 
something we often do in this Congress. All too often we are 
talking about taking from the American taxpayer and giving to 
big business, but today we are going to be talking about 
raising money from big business through an equal exchange of 
value for a commodity, and this represents good policy and good 
government and I am pleased we are having the hearing.
    As we plot a strategy on how we move forward on broadband 
and how to best utilize the spectrum, I am one of many on this 
committee, as you have heard, who have long advocated for an 
effective and efficient inventory and assessment of what is 
available and how we best use it and how we best allocate it. I 
think it is important. Mr. Shimkus mentioned D block and some 
of the work that needs to be done as we learn some lessons from 
that approach. We know that this is a robust industry. We know 
that well over 80 percent of consumers are happy with their 
wireless service, according to a recent GAO study. That is 
pretty good. Eighty percent of people like the product that is 
there and that is available. There is ample motivation to get 
as much information as possible on spectrum availability and 
evaluate all of our options for relocation, so I am pleased we 
are bringing many different parts of this discussion together 
today, and I yield back the balance of my time.
    Mr. Boucher. Thank you, Ms. Blackburn.
    The gentleman from California, Mr. McNerney, is recognized 
for 2 minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, thank you, Mr. Chairman, for convening 
today's hearing on two bipartisan bills that are intended to 
help our country make better use of our spectrum. H.R. 3125, 
the Radio Spectrum Inventory Act, will provide for the 
gathering of information about spectrum use to increase 
transparency and help us understand exactly how the spectrum is 
now utilized.
    This is no small task but it is absolutely essential to 
make informed decisions on allocating spectrum to meet the 
ever-increasing demand for wireless broadband spectrum. It has 
been reported that the U.S. allocation of spectrum compares 
poorly with OECD nations and is inadequate to meet the growing 
demand. We can't let that happen. We are going to do the best 
we can to help industry take the lead and make our Nation lead 
the world in broadband.
    H.R. 3019, the Spectrum Relocation Improvement Act, 
streamlines the spectrum auction process and will reduce the 
time required to reallocate federal spectrum cleared for 
commercial use, allowing licensees to utilize their spectrum 
without unnecessary delay. As a cosponsor of both of these 
bills, I recognize the importance of properly managing 
available spectrum. I also understand that the sponsors of H.R. 
3125 are working with the Department of Defense to ensure that 
the bill also protects ongoing military uses of spectrum and I 
look forward to working with my colleagues to improve this 
legislation.
    I thank the witnesses for taking time to share their 
perspective on this legislation and I yield back the balance of 
my time.
    Mr. Boucher. Thank you, Mr. McNerney.
    The gentleman from Michigan, Mr. Upton, is recognized for 2 
minutes. Oh, not here. The gentleman from Indiana, Mr. Buyer, 
is recognized for 2 minutes.
    Mr. Buyer. Mr. Chairman, I would ask that my time be placed 
upon questions, and I welcome my friends, Steve Largent and 
Gordon Smith.
    Mr. Boucher. The gentleman will have added time for 
questions.
    The gentlelady from the Virgin Islands, Ms. Christensen, is 
recognized for 2 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman. I am going to 
also waive my opening statement and put it into the record. I 
would like to welcome the witnesses, especially Senator Smith, 
who I believe is here for the first time. Thank you. I yield 
back.
    Mr. Boucher. Thank you, Ms. Christensen.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, and thank you so much 
for having this hearing.
    Back in 1993, we were in a world where there were two cell 
phone companies. They each charged about 50 cents a minute, and 
it was analog, but in 1993 this committee moved over 200 
megahertz of spectrum and we created the third, fourth, fifth 
and sixth cell phone licenses. They all went digital. And by 
1996, the price had dropped to under 10 cents a minute. The 
first two companies had moved to digital as well and we had a 
revolution that was ongoing, and it was so successful that 
right now there are people sitting out here in the audience 
checking their BlackBerry rather than listening to my opening 
statement, and that is a tribute to what our committee made 
possible. And now we are on to the next stage of this 
revolution where we know that the Hulu, Google, eBay, Amazon 
revolution is something that continues on. This committee 
should be very proud of it. And by reallocating even more 
spectrum will make it possible for the entrepreneurs, will make 
it possible for these technology geniuses to once again brand a 
revolution made in America. We have to stay ahead of this 
curve. We have to make sure that it is something that is 
American. We did that in the 1900s. We have a chance to do it 
again.
    I congratulate, Mr. Chairman, for your work on this issue. 
It was bipartisan then. It should be bipartisan again. We are 
into a wealth creation. That is what this is all about, and the 
more effectively that we can think this issue through, which is 
what you are doing, is the more likely that we will create the 
greatest amount of wealth that will help our country become 
more prosperous, and I thank you for doing that.
    Mr. Boucher. Thank you very much, Mr. Markey.
    The gentlelady from Florida, Ms. Castor, is recognized for 
2 minutes.
    Ms. Castor. Because it is impossible, Mr. Chairman, to 
follow Mr. Markey, I am going to submit my statement for the 
record and yield back my time. Thank you for holding the 
hearing.
    Mr. Boucher. Thank you, Ms. Castor.
    The gentleman from Ohio, Mr. Space, is recognized for 2 
minutes.
    Mr. Space. Thank you, Mr. Chairman, and I welcome our 
witnesses. I too would waive my opening.
    Mr. Boucher. Thank you very much, Mr. Space.
    That concludes opening statements from members of the 
subcommittee, and we now welcome our panel of witnesses this 
morning. We are pleased to have each of you with us today and 
we very much look forward to your testimony.
    Just a brief word of introduction about each of our 
witnesses. Dr. Dale Hatfield is an adjunct professor with the 
Interdisciplinary Telecommunications Program at the University 
of Colorado. Steve Largent, former Member of the House of 
Representatives and former member of this committee, is the 
president and chief executive officer of the Cellular 
Telecommunications Industry Association, the Wireless 
Association. Mr. Michael Calabrese is vice president and 
director of the Wireless Future Program at the New America 
Foundation. Former Senator Gordon Smith, we welcome to this 
committee for the first time in his new role as president of 
the National Association of Broadcasters, and we look forward 
to a long and successful partnership with you. Dr. Ray Johnson 
is the senior vice president and chief technology officer of 
the Lockheed Martin Corporation, and Mr. Thomas Stroup is the 
chief executive officer of Shared Spectrum Company. We welcome 
each of you.
    Without objection, your prepared written statement will be 
made a part of the record, and we would ask that you keep your 
oral summaries to approximately 5 minutes.
    Mr. Hatfield, we will be happy to begin with you.

        STATEMENTS OF DALE HATFIELD, ADJUNCT PROFESSOR, 
  INTERDISCIPLINARY TELECOMMUNICATIONS PROGRAM, UNIVERSITY OF 
COLORADO AT BOULDER; STEVE LARGENT, PRESIDENT AND CEO, CTIA-THE 
  WIRELESS ASSOCIATION; MICHAEL CALABRESE, VICE PRESIDENT AND 
DIRECTOR, WIRELESS FUTURE PROGRAM, NEW AMERICA FOUNDATION; HON. 
  GORDON H. SMITH, PRESIDENT AND CEO, NATIONAL ASSOCIATION OF 
BROADCASTERS; RAY O. JOHNSON, PH.D., SENIOR VICE PRESIDENT AND 
  CHIEF TECHNOLOGY OFFICER, LOCKHEED MARTIN CORPORATION; AND 
THOMAS STROUP, CHIEF EXECUTIVE OFFICER, SHARED SPECTRUM COMPANY

                   STATEMENT OF DALE HATFIELD

    Mr. Hatfield. Thank you, Mr. Chairman, Chairman Boucher, 
Ranking Member Stearns and members of the subcommittee. I am 
very pleased and honored to appear before you today to testify 
on the topic of radio spectrum management, and in particular on 
the issues raised by H.R. 3125 and by H.R. 3019.
    My name is Dale Hatfield. In addition to the position that 
you just mentioned, I am also the executive director of the 
Silicon Flat Iron Center for Law, Technology and 
Entrepreneurship at the University of Colorado at Boulder. I 
should note in the past that I have engaged in independent 
consulting activities including for some members that are 
represented on the panel today. As I detailed in my prepared 
testimony, I have other affiliations but today I am testifying 
entirely on my own behalf as a private citizen.
    Now, in my written testimony, I present some background on 
spectrum management and then focus on five overarching themes 
or points. It is those five points that I will briefly 
summarize now.
    First, I have been involved in spectrum management issues 
for over 4 decades and it is very clear to me that we are now 
at an unprecedented period of demand for access to spectrum in 
the critical frequency range of roughly 300 megahertz to 3 
gigahertz. This increase in demand for spectrum is propelled by 
increases in the number of uses of the resource and the number 
of users and the amount of bandwidth or capacity consumed per 
user per use. While the exponential growth in commercial 
cellular bandwidth requirements is perhaps the most visible, 
there are a host of other increasing demands for spectrum in 
this range as well including important ones that support public 
safety, homeland security and national defense priorities. 
Thus, in my opinion, the spectrum scarcity issue that the 
legislation sets out to address is very real.
    Second, in my written testimony I review five traditional 
techniques that we have used in the past to accommodate growth 
and demand for the resource: one, going higher in frequency; 
two, improving the technical efficiency of spectrum 
utilization; three, reallocating existing spectrum from use to 
another; four, increasing the amount of spectrum sharing; and 
five, reusing spectrum more intensely in the geographic 
dimension. I conclude that for technical reasons, going higher 
in frequency will be of limited utility in solving the current 
spectrum crisis associated with wireless mobile data 
applications, and that while further improvements in technical 
efficiency can help, they are apt to be inadequate in solving 
the problems associated with the orders of magnitude increases 
in spectrum demand. That leaves relocation, increased sharing 
and more intense frequency reuse at least in some services as 
potential solutions, albeit ones with unique challenges of 
their own.
    Third, setting aside spectrum relocation for the moment, I 
next focused on increasing sharing and in more intense 
frequency reuse. With regard to the former, I comment favorably 
on past steps that the FCC has taken to encourage voluntary 
sharing of the resource through secondary markets. I go on to 
conclude that a combination of increased incentives or mandates 
for spectrum sharing coupled with more decentralized, more 
opportunistic and more technologically sophisticated techniques 
for accessing spectrum can be a significant helping in avoiding 
the looming crisis. In terms of increased frequency reuse, I 
first note that it is not always possible because of the nature 
of some services. In other words, some services like radar 
require very high power operating over long distances and 
therefore you can't reuse the spectrum on a geographic basis as 
easily. I also wanted to note that spectrum reuse may be 
constrained by the availability of suitable antenna locations 
and economic backhaul facilities.
    Fourth, I comment that I am a strong supporter of 
conducting the spectrum inventory called out in H.R. 3125 and 
hence for the legislation itself because I am a strong believer 
in that old adage, you can't manage what you don't measure. It 
is that simple. I go on to conclude that a comprehensive and 
ongoing inventory is necessary to support two of the most 
promising of the three ways of averting a spectrum crisis, that 
is, relocation and increased sharing.
    Fifth, I observe that while I am a strong supporter of 
conducting spectrum inventories, I also note based on many 
years of experience that there are potential shortcomings 
associated with a paper study, at least in some services. 
Therefore, I conclude that the inventory mandated in the 
proposed legislation should be augmented by selected field 
measurements to gain additional information on actual usage in 
those bands identified as being the most promising for 
relocation or increased sharing.
    That concludes my oral testimony, Mr. Chairman, and I would 
be happy to respond to any questions that you or the rest of 
the subcommittee might have.
    [The prepared statement of Mr. Hatfield follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.001
    
    [GRAPHIC] [TIFF OMITTED] T4860A.002
    
    [GRAPHIC] [TIFF OMITTED] T4860A.003
    
    [GRAPHIC] [TIFF OMITTED] T4860A.004
    
    [GRAPHIC] [TIFF OMITTED] T4860A.005
    
    [GRAPHIC] [TIFF OMITTED] T4860A.006
    
    [GRAPHIC] [TIFF OMITTED] T4860A.007
    
    [GRAPHIC] [TIFF OMITTED] T4860A.008
    
    [GRAPHIC] [TIFF OMITTED] T4860A.009
    
    [GRAPHIC] [TIFF OMITTED] T4860A.010
    
    Mr. Boucher. Thank you very much, Mr. Hatfield.
    Mr. Largent, we will be happy to hear from you.

                   STATEMENT OF STEVE LARGENT

    Mr. Largent. Thank you, Mr. Chairman, and I want to thank 
you and the ranking member and say to all the members, hope you 
have a Merry Christmas, Happy New Year, hope you get there.
    I want to thank you for the opportunity also to share the 
wireless industry's views on the Radio Spectrum Inventory Act 
and the Spectrum Relocation Improvement Act. These bills are 
much needed bookends for a process that will enable additional 
spectrum to be made available for the wireless broadband 
initiative and other services.
    Today the United States is the world leader in wireless 
broadband. While having less than 7 percent of the global 
wireless subscribers, the United States is home to more than 20 
percent of global 3G subscribers. Our 112 million 3G 
subscribers are more than any other country and more than the 
third, fourth, fifth and sixth countries combined. 
Additionally, the most advanced wireless devices which are 
manufactured by global companies and could be launched anywhere 
in the world routinely debut in the U.S. marketplace. As a pair 
of former NTIA administrators recently noted, the convergence 
of mobile wireless services and high-speed Internet access and 
the evolution of handsets from telephones to powerful handheld 
computers promises to transform the way we work, learn, deliver 
health care, manage energy consumption and enhance public 
safety.
    The key to translating this promise into reality is access 
to more spectrum. CTIA believes there is an urgent need to 
identify additional spectrum that can be made available for 
wireless broadband and other advanced wireless services. By 
providing for a comprehensive and timely inventory of spectrum 
below 10 gigahertz, enactment of H.R. 3125 would represent an 
important step towards meeting rapidly accelerating demand and 
maintaining U.S. leadership in the global wireless marketplace
    How much spectrum do we need? The ITU projects that by 
2015, developed countries will need at least 1,300 megahertz of 
spectrum for commercial wireless operations. Since the United 
States currently has less than 500 megahertz of spectrum 
available for commercial wireless services, we have asked the 
FCC to identify additional spectrum that can be reallocated to 
help us meet the ITU's benchmark.
    Many of our trading partners are taking steps towards this 
goal and the United States needs to keep up if we are to stay 
ahead. A properly constructed inventory effort is a sound place 
to start. The inventory is only the first step, however. Once 
the inventory is complete, policymakers must use it to 
reallocate spectrum for advanced wireless services.
    History demonstrates that it can take a decade or more to 
reallocate spectrum for commercial use and put such spectrum in 
the hands of providers of commercial mobile services, more than 
a decade. Given the exploding demand for mobile broadband, we 
must move more quickly than was the case with either AWS or 700 
megahertz efforts. We simply can't wait until 2020 or beyond.
    We recognize there will be critics of the effort to move 
forward with an inventory and relocation of spectrum. They will 
claim that carriers should be more efficient with the spectrum 
already available, that we can build out way out of the problem 
or that we have already seen an expansion in the amount of 
spectrum available for commercial services through the recent 
AWS and 700 megahertz auctions. There are sound reasons why the 
subcommittee should dismiss these criticisms, and I have 
discussed these in my written statement.
    Finally, once an inventory is complete and spectrum is 
identified for relocation and auction, the improvements to the 
spectrum relocation process proposed by H.R. 3019 will ensure 
that the relocation process works smoothly for all parties.
    Thank you for the opportunity to discuss these matters with 
the subcommittee. We look forward to working with you to ensure 
that the U.S. wireless industry continues to serve as an engine 
for jobs, economic growth and the American competitive 
advantage. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Largent follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.011
    
    [GRAPHIC] [TIFF OMITTED] T4860A.012
    
    [GRAPHIC] [TIFF OMITTED] T4860A.013
    
    [GRAPHIC] [TIFF OMITTED] T4860A.014
    
    [GRAPHIC] [TIFF OMITTED] T4860A.015
    
    [GRAPHIC] [TIFF OMITTED] T4860A.016
    
    Mr. Boucher. Thank you, Mr. Largent.
    Mr. Calabrese.

                 STATEMENT OF MICHAEL CALABRESE

    Mr. Calabrese. Good morning. First I would like to thank 
the committee's leadership for taking up these two very 
complementary and important pieces of legislation on a notably 
bipartisan basis. A national goal of not merely affordable 
broadband access but of seamless mobile connectivity anywhere 
and anytime will require an enormous increase in available 
spectrum capacity.
    The Apple iPhone has proven to be the canary in the 
proverbial spectrum coalmine. Advanced smart phones consume 
hundreds of times the bandwidth of ordinary cell phones. With 
sufficient spectrum, pervasive connectivity will rapidly become 
integrated as well in applications for sensing networks, mobile 
health monitoring, energy conservation, education and more. 
This exploding demand and the continued focus on exclusive 
licensing by auction has served to reinforce the conventional 
wisdom that spectrum in scarce. In reality, the only scarcity 
is government permission to use spectrum, that is, licensing. 
Spectrum capacity itself is very abundant. Even in the most 
valuable beachfront frequencies below 3 gigahertz, actual 
spectrum use measurements show that the vast majority of 
frequency bands are not being used in most locations and at 
most times. This gross underutilization of the Nation's 
spectrum resource should be an urgent concern.
    Spectrum is not only an immensely valuable and publicly 
owned resources but it is one that is infinitely renewable 
every millisecond. That is why New America and the Broader 
Public Interest Spectrum Coalition that we work with strongly 
support enactment of H.R. 3125, the Radio Spectrum Inventory 
Act. We agree that the more comprehensive inventory described 
in the House bill is needed. A more granular and comprehensive 
description of spectrum use in each market will assist 
policymakers, entrepreneurs and technologists to propose new 
ways to enhance both access and efficiency. We also agree it is 
important to extend the inventory up to 10 gigahertz, as the 
House bill provides.
    Spectrum mapping would help facilitate expanded access to 
broadband in at least three ways. First, by improving the 
functioning of secondary markets for license transfers and 
leasing; second, it will provide information on what it would 
take to clear some very underutilized bands for new uses, and 
third, and perhaps more important, it will reveal the far 
greater number of frequency bands that can be made available 
for shared access in discrete geographic areas at certain times 
of the day or year or at certain altitudes or power levels. We 
expect rural areas to be the most likely and immediate 
beneficiaries of this mapping.
    The one shortcoming of H.R. 3125, in our view, is that an 
inventory of spectrum assignments should be augmented by actual 
spectrum use measurements as Dale just mentioned. Measurements 
and eventually a system of spectrum use monitoring can provide 
a more nuanced window into how, when, where and to what extent 
bands are actually in use. We realize that measurements add a 
budgetary cost. Fortunately, we believe appropriated funds are 
available over the next 4 years for a very robust 
implementation of the inventory act. As part of the Recovery 
Act, Congress appropriated $350 million for a ``comprehensive 
nationwide inventory map of the Nation's existing broadband 
capabilities.'' Since NTIA will award less than half the 
available funding to the States for broadband mapping, Congress 
could clarify that a portion of the remainder be used to 
inventory the airwaves as well.
    We also strongly support H.R. 3019, the Spectrum Relocation 
Improvement Act. Nowhere is spectrum underutilization more 
evident than in many of the bands reserved for use by the 
federal government itself. While we support H.R. 3019, we also 
believe the legislation should be broadened to take advantage 
of a critical opportunity to free up far greater spectrum 
capacity. H.R. 3019 would continue to limit eligibility for 
radio system modernization to agencies actually clearing off a 
set of frequencies. While only a tiny fraction of federal 
spectrum could be cleared and auctioned in the near future, a 
far greater number of bands could be shared more intensively by 
taking advantage of advances in smart radio technologies. 
Federal spectrum incumbents need the resources to take 
affirmative steps to enable more intensive access and band 
sharing by other users. This could be a real win-win for the 
military. New and upgraded federal systems could be designed 
and procured with the broader public interest and spectrum 
access in mind and not only in the very limited case of a band 
being cleared for auction.
    I will stop there. Thank you very much, and I will be 
pleased to take any questions.
    [The prepared statement of Mr. Calabrese follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.017
    
    [GRAPHIC] [TIFF OMITTED] T4860A.018
    
    [GRAPHIC] [TIFF OMITTED] T4860A.019
    
    [GRAPHIC] [TIFF OMITTED] T4860A.020
    
    [GRAPHIC] [TIFF OMITTED] T4860A.021
    
    [GRAPHIC] [TIFF OMITTED] T4860A.022
    
    [GRAPHIC] [TIFF OMITTED] T4860A.023
    
    [GRAPHIC] [TIFF OMITTED] T4860A.024
    
    [GRAPHIC] [TIFF OMITTED] T4860A.025
    
    [GRAPHIC] [TIFF OMITTED] T4860A.026
    
    [GRAPHIC] [TIFF OMITTED] T4860A.027
    
    [GRAPHIC] [TIFF OMITTED] T4860A.028
    
    [GRAPHIC] [TIFF OMITTED] T4860A.029
    
    [GRAPHIC] [TIFF OMITTED] T4860A.030
    
    [GRAPHIC] [TIFF OMITTED] T4860A.031
    
    [GRAPHIC] [TIFF OMITTED] T4860A.032
    
    [GRAPHIC] [TIFF OMITTED] T4860A.033
    
    Mr. Boucher. Thank you, Mr. Calabrese.
    Mr. Smith.

               STATEMENT OF HON. GORDON H. SMITH

    Mr. Smith. Mr. Chairman, Ranking Member Stearns, members of 
this honorable committee, it is indeed a pleasure and a 
privilege for me to be before you to speak a few thoughts about 
spectrum on behalf of the National Association of Broadcasters.
    First, NAB believes that any inventory spectrum should be 
comprehensive. Let us look at all the bands and all the 
services including the federal government bands and let us view 
how each service is using its existing spectrum. Second, our 
national priorities should recognize the value that free over-
the-air broadcasting brings to every American. Broadcasting and 
broadband are not either/or propositions, as some suggest. I 
believe that is a false choice. Third, we should challenge all 
services to be efficient and innovative users of spectrum.
    Through our recent transition to digital, broadcasting has 
become more efficient. With your help, the transition was a 
resounding success and the benefits are remarkable. In a 
digital world, viewers receive many new programming streams and 
a wide variety of content and local news in high definition. It 
would be shortsighted to stunt that growth and dampen what is 
an even brighter future for broadcasting. If broadcasting is 
limited or eliminated, consumer investment and expectations in 
DTV receivers would be stranded. Consumers spent an estimated 
$25 billion in HDTV receivers in 2009 alone. Millions of other 
Americans invested time, effort and funds on converter boxes, 
and the U.S. government spent $2 billion to help them with 
this. The broadcasters spent an additional $10 billion to make 
the transition.
    For years, consumers have been promised that the digital 
upgrade would usher in a new era of high-quality television 
with new and more diverse programming, more channels and a host 
of new services all for free and over the air. If, as some 
advocate, that this all be done away with, consumers would 
realize none of these benefits. Through the DTV transition, 
broadcasters gave back 108 megahertz of spectrum. Broadcast 
television is the first wireless service to ever substantially 
reduce its spectrum use while providing an increase in 
services.
    Then there is mobile DTV. This year, the television 
industry adopted a new mobile digital television standard, 
turning on the green light for manufacturing and 
implementation, and the results are nothing short of stunning. 
Members of the committee, this is a mobile TV. Right now it is 
playing a program from NBC. There are seven channels in the 
Washington, D.C., metropolitan area that are doing this. It is 
also a cell phone. And this combination of technologies is, I 
believe, the future of mobile wireless communications. It is 
not an exaggeration to say that you will soon be able to 
receive broadcast television signals on almost any device. This 
is an example. Soon your BlackBerry will be a TV. Your iPhone 
could be a TV. You name it, we are on the cusp of it, and to 
short-circuit it now it seems to me would be very unwise.
    Broadcasting's ability--and this is very important to 
understand. Broadcasting's ability to serve one to many in 
small-bandwidth segments is unique among all services. At 
moments of national significance or tragedy when millions of 
Americans are seeking information, broadcasting is the most 
efficient delivery system. With each new viewers, broadcasters' 
use of spectrum becomes more efficient without any additional 
burden on spectrum. By contrast, with wireless broadband, each 
stream of content to every individual places an additional 
strain on the wireless network, clogging up the bandwidth, and 
there is more. For example, a company called Sesmi is working 
with broadcasters to provide a blended broadcast/broadband 
system. If you haven't seen this, Members, I urge you to do it. 
That system is more affordable, high quality and an 
alternative, a more affordable alternative to cable and 
satellite.
    A comprehensive objective examination of spectrum 
allocation and usage is a worthwhile endeavor. Such an analysis 
if done forthrightly and without bias will demonstrate that 
broadcasters continue to be the effective custodians of our 
Nation's airwaves.
    Many broadcast services have not been and cannot be 
efficiently replicated by broadband services. Broadcasters, for 
example, help to save lives through timely coverage of natural 
disasters and other emergencies, and by coordinating with local 
law enforcement officials via Amber Alerts, broadcasters have 
participated in the recovery of 492 abducted children.
    Mr. Boucher. Mr. Smith, if you could wrap up, you are a bit 
beyond your time here.
    Mr. Smith. Let us not forget the concerns we all shared 
during the DTV transition. We spent a lot of time to get it 
right and we did it so that economically disadvantaged, the 
elderly, rural and ethnic minorities are not left out with 
access to critical news and information.
    And finally, Mr. Chairman, if my statement is in the 
record, I think it is important that when you consider highest 
and best use and you put all of these public values in, the 
value of broadcasting is self-evident. Thank you, sir.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.034
    
    [GRAPHIC] [TIFF OMITTED] T4860A.035
    
    [GRAPHIC] [TIFF OMITTED] T4860A.036
    
    [GRAPHIC] [TIFF OMITTED] T4860A.037
    
    [GRAPHIC] [TIFF OMITTED] T4860A.038
    
    [GRAPHIC] [TIFF OMITTED] T4860A.039
    
    [GRAPHIC] [TIFF OMITTED] T4860A.040
    
    [GRAPHIC] [TIFF OMITTED] T4860A.041
    
    [GRAPHIC] [TIFF OMITTED] T4860A.042
    
    [GRAPHIC] [TIFF OMITTED] T4860A.043
    
    [GRAPHIC] [TIFF OMITTED] T4860A.044
    
    [GRAPHIC] [TIFF OMITTED] T4860A.045
    
    [GRAPHIC] [TIFF OMITTED] T4860A.046
    
    [GRAPHIC] [TIFF OMITTED] T4860A.047
    
    [GRAPHIC] [TIFF OMITTED] T4860A.048
    
    [GRAPHIC] [TIFF OMITTED] T4860A.049
    
    [GRAPHIC] [TIFF OMITTED] T4860A.050
    
    [GRAPHIC] [TIFF OMITTED] T4860A.051
    
    [GRAPHIC] [TIFF OMITTED] T4860A.052
    
    [GRAPHIC] [TIFF OMITTED] T4860A.053
    
    [GRAPHIC] [TIFF OMITTED] T4860A.054
    
    Mr. Boucher. Thank you very much, Mr. Smith.
    Dr. Johnson.

                  STATEMENT OF RAY O. JOHNSON

    Mr. Johnson. Chairman Boucher, Ranking Member Stearns and 
members of this subcommittee, good morning and thank you for 
inviting Lockheed Martin Corporation to participate in today's 
hearing on the Radio Spectrum Inventory Act. My name is Dr. Ray 
Johnson and I serve as Lockheed Martin's senior vice president 
and chief technology officer. My role in the corporation 
provides me with a broad perspective of important spectrum 
issues relevant to the discussion today. I appreciate the 
opportunity to contribute and I am honored to offer input that 
may help inform your consideration of these important policy 
matters.
    Lockheed Martin is a global security company that employees 
approximately 140,000 people in all 50 States. We are 
principally engaged in the research, design, development, 
manufacturing, integration and sustainment of advanced 
technology systems, products and services and most of these 
systems and solutions depend on access to the spectrum that we 
are discussing. Our customers include a broad array of agencies 
both military and civil for whom we support diverse critical 
security missions both at home and abroad. At any given time, 
Lockheed Martin Corporation holds approximately 400 FCC 
authorizations for a variety of uses including experimental 
licenses that enable the testing of new technologies as well as 
new applications being applied to existing technologies.
    As a general matter, spectrum scarcity is not a problem 
that is unique to FCC licensees. Based on our understanding, 
federal government users are experiencing the same pressure as 
they are required to meet increasing demands of their critical 
roles and missions. Therefore, it is an important balance that 
H.R. 3125 achieves by requiring an inventory of both federal 
and non-federal spectrum resources to be conducted by the FCC 
and the NTIA. Although through our own activities in developing 
advanced systems and solutions to meet many federal government 
needs, we see growth in requirements in terms of access to 
bandwidth-intensive applications whether that is video 
streaming from an unmanned vehicle or surveillance from a high-
altitude airship.
    Lockheed Martin endorses the enactment of H.R. 3125, the 
Radio Spectrum Inventory Act. We do, however, have some 
concerns with the bill as it was introduced and respectfully 
suggest that the bill be modified to reflect the following 
issues.
    First, I note that the stated purpose of H.R. 3125 is to 
promote spectrum efficiency. While the bill does not explicitly 
require that NTIA and FCC conduct an efficiency analysis of 
spectral usage, the proposed section 119(a)(1)(E) as added by 
the bill steers the agencies in that direction. However, there 
is no single metric that spans all communications and non-
communications uses of the spectrum, which can be used for 
point of comparison. The intensity-of-use metric is not 
correlated with effectiveness or efficiency for many spectral 
users. Moreover, efficiency improvements should not be equated 
to the reduction in bandwidth utilized. Measuring spectrum 
efficiency using as a proxy the price entities are willing to 
pay for a license is also inappropriate. Many critical spectrum 
users deliver tremendous value to our country most importantly 
to our national and homeland security but do not directly 
generate revenues.
    Second, we are concerned that the bill would inadvertently 
require FCC and the NTIA to disclose sensitive information that 
should not be disclosed. This disclosure does not only impact 
the federal government but also impacts some FCC licensees like 
Lockheed Martin. We agree with the Administration's stated 
concern and note that from any inventory security perspective, 
it is very important to recognize that the release of 
individual unclassified data points can result in sensitive 
information being improperly disclosed when viewed more as an 
aggregate.
    Third, I would like to raise a concern to the subcommittee 
regarding the possible misinterpretation of the legislation in 
two ways. One is the potential inadvertent message that it 
sends to our allies in the international community given the 
scope of the frequencies being inventoried and the provision 
requiring recommendations for relocation. The Department of 
Defense and the defense industry have worked hard to achieve an 
international spectrum harmonization to support allied 
interoperability. The other concern is the requirement for 
annual review of spectrum. This review can create an impression 
of volatility and instability in spectrum allocations, thus 
impacting long-term research and development, acquisition and 
the deployment of new systems and solutions. Suggestions of 
instability in spectrum access could result in a chilling 
effect in the long-term technology investments.
    Finally, we have identified a few technical issues with the 
drafting of the bill that we will submit separately to the 
staff.
    While I am here today to address H.R. 3125, I would like to 
note that we do have some concerns with H.R. 3019 as well and 
we would be happy to offer a follow-up discussion with the 
subcommittee.
    Mr. Chairman, I appreciate having the opportunity to 
testify. H.R. 3125 is a good start and Lockheed Martin commends 
you and the other cosponsors for identifying the need for 
spectrum inventory and for taking the initiative to draft 
legislation to address this issue. We hope that you will agree 
with our suggestions to improve the bill and we look forward to 
working with you and the committee staff throughout the 
legislation process. I am happy to answer any questions that 
you may have.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.055
    
    [GRAPHIC] [TIFF OMITTED] T4860A.056
    
    [GRAPHIC] [TIFF OMITTED] T4860A.057
    
    [GRAPHIC] [TIFF OMITTED] T4860A.058
    
    [GRAPHIC] [TIFF OMITTED] T4860A.059
    
    [GRAPHIC] [TIFF OMITTED] T4860A.060
    
    [GRAPHIC] [TIFF OMITTED] T4860A.061
    
    [GRAPHIC] [TIFF OMITTED] T4860A.062
    
    Mr. Boucher. Thank you very much, Dr. Johnson.
    Mr. Stroup.

                   STATEMENT OF THOMAS STROUP

    Mr. Stroup. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for this opportunity to testify on the 
pending spectrum inventory and relocation bills. My testimony 
this morning will focus on two main points.
    First, to determine how and if spectrum resources are being 
used efficiently, a spectrum inventory and spectrum database 
must include data on actual spectrum utilization. Second, until 
a database is compiled and analyzed, we caution against jumping 
to any conclusions as to what is next for particular frequency 
bands because new technology presents spectrum access 
alternatives that have not existed until now.
    I have been involved in the wireless industry for over 25 
years. In the early 1990s, I was president of the Personal 
Communications Industry Association, which helped the nascent 
wireless industry win the reallocation of fixed microwave 
spectrum for new personal communications services which were 
the source of competition and innovation that were referenced 
by Congressman Markey. Then I founded and ran a company called 
Columbia Spectrum Management to facilitate and negotiate the 
relocation of fixed microwave incumbents in FCS bands for the 
auction winners.
    Since March of this year, I have been the CEO of Shared 
Spectrum Company. Shared Spectrum is a small technology company 
located in Vienna, Virginia. Since the founding of the company 
in 2000, Dr. Mark McHenry has been conducting spectrum 
occupancy studies to document the untapped potential of many 
unused frequency bands. Attached to my written testimony is a 
list of our public studies to date. The video monitors in the 
room are also displaying some sample results of our 
measurements. These studies include measurements from New York 
City, Chicago and Washington, D.C., during periods of 
anticipated high radio traffic. They indicate that less than a 
third of the allocated radio spectrum was being used at any 
given time.
    To take advantage of this empty spectrum capacity, SSC 
pioneered dynamic spectrum access, or DSA, technology. DSA 
takes advantage of the empty spectrum capacity by adapting to 
the spectral environment and changing transmission or reception 
parameters. This allows for more-efficient wireless 
communications without interfering or requiring the dislocation 
of legacy systems using the same bands. The company developed 
DSA over the past 9 years for several military projects, and 
this technology is now being implemented in several military 
radio systems. We are also exploring several commercial 
applications including new cost-effective rural wireless 
broadband systems that can access preferred lower frequencies.
    As has been pointed out throughout the hearing, the demand 
for spectrum across all sectors and markets is substantially 
increasing. We agree that the necessary first step in 
confronting the spectrum dilemma is to conduct a comprehensive 
study of the Nation's spectrum resources. We are therefore 
pleased to support the Radio Spectrum Inventory Act. The bill 
would provide guidance to the FCC and NTIA to work together to 
create a database of spectrum allocations and assignments. 
However, it is also important to supplement this data with 
information regarding the actual use of the airwaves. Virtually 
every service to which spectrum is allocated can show a 
legitimate need for the spectrum, and most incumbents will 
argue that they make effective use of their allocations. Thus, 
compiling a database of spectrum assignments will be 
interesting but that alone will fail to show how much or even 
if the spectrum is actually being utilized.
    Until such a database is compiled and available, we caution 
against any presupposition as to what is next for a particular 
radio band. To assume that the next step following the initial 
inventory would be a traditional reallocation proceeding would 
amount to a plan for years and years of fighting among 
entrenched interests that have no notion or incentive to have 
their existing spectrum rights diminished no matter how little 
they are utilized. This is based on my personal experience 
where it took 6 years for the PCS spectrum to be reallocated 
and that looked like the fast track compared to more 
reallocation efforts that typically have dragged for more than 
10 years.
    As the subcommittee moves forward, we believe that it is 
also important to recognize that new technologies like DSA 
enable more-efficient use of existing spectrum allocations and 
can create new opportunities for sharing spectrum with the 
existing services in underutilized bands. The interest in 
finding additional spectrum for wireless broadband services is 
more likely to be accommodated in a timely manner if a flexible 
access framework is established that includes DSA-enabled 
sharing with government and non-government incumbents. Such a 
framework would focus on multipurposing legacy bands with 
flexible overlay rights and responsibilities. Approaches that 
involve repurposing certain bands and relocating incumbents 
would be too difficult, too costly, too time consuming, and in 
light of new technology, unnecessary.
    Instead, a better policy would build upon the approach 
taken when the PCS bands were made available in 1995. The 
licenses that were auctioned were subject to a non-interference 
requirement with the existing microwave incumbents. While most 
of those licensees ultimately were relocated to new systems on 
other frequencies, the advances made in DSA and cognitive radio 
technology now provide the ability to coexist with legacy 
systems that was not available at that time.
    Thank you again for this opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Stroup follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.063
    
    [GRAPHIC] [TIFF OMITTED] T4860A.064
    
    [GRAPHIC] [TIFF OMITTED] T4860A.065
    
    [GRAPHIC] [TIFF OMITTED] T4860A.066
    
    [GRAPHIC] [TIFF OMITTED] T4860A.067
    
    [GRAPHIC] [TIFF OMITTED] T4860A.068
    
    [GRAPHIC] [TIFF OMITTED] T4860A.069
    
    [GRAPHIC] [TIFF OMITTED] T4860A.070
    
    [GRAPHIC] [TIFF OMITTED] T4860A.071
    
    [GRAPHIC] [TIFF OMITTED] T4860A.072
    
    [GRAPHIC] [TIFF OMITTED] T4860A.073
    
    [GRAPHIC] [TIFF OMITTED] T4860A.074
    
    [GRAPHIC] [TIFF OMITTED] T4860A.075
    
    [GRAPHIC] [TIFF OMITTED] T4860A.076
    
    [GRAPHIC] [TIFF OMITTED] T4860A.077
    
    [GRAPHIC] [TIFF OMITTED] T4860A.078
    
    [GRAPHIC] [TIFF OMITTED] T4860A.079
    
    [GRAPHIC] [TIFF OMITTED] T4860A.080
    
    Mr. Boucher. Well, thank you, Mr. Stroup, and thanks to all 
of our witnesses for your informative remarks here this 
morning. I particularly appreciate the broad consensus that is 
evident from your testimony about the need to move forward with 
both of the bills that are the subject of our legislative 
hearing this morning, particularly the need for an inventory of 
spectrum that could be reallocated for commercial purposes. A 
number of you, most recently Mr. Stroup, just mentioned the 
potential of spectrum sharing as a way to accommodate new 
commercial services within our spectrum constraints. Could you 
talk a little bit about the state of the technology with regard 
to spectrum sharing and what potential really does it hold and 
what limitations does it face? And who would like to begin? Mr. 
Hatfield.
    Mr. Hatfield. Yes. Thank you. I think that sharing, you can 
look at it in two ways. It is important to look at it in two 
ways. We have always shared a lot of the existing spectrum and 
we call that static sharing. For example, an antenna pointed at 
a satellite and antennas pointing on the ground are pointing in 
different directions and that provides sufficient isolation 
that a satellite system can share with a terrestrial system, 
and that static sort of sharing has been with us for quite some 
time and used effectively. I think the key here is combining 
the concepts that Tom talked about is that a lot of spectrum is 
not being used all the time today and look at more dynamic 
forms of sharing. In other words, for example, here in town 
today in D.C., a particular channel might not be used by some 
private microwave, something like that, and that spectrum could 
be shared on a dynamic basis. So I think the key going 
forward----
    Mr. Boucher. So you are not talking about technology in 
that example that would use the same spectrum simultaneously by 
various users but simply with a phased use of a spectrum by 
various users, each using it fully within that allotted time?
    Mr. Hatfield. Yes, where they are using it but not all the 
time, or as we can say, there may be directionality or 
something that can be employed that would allow dynamic 
sharing.
    Mr. Boucher. Given that opportunity, talk a little bit if 
you would about the state of technology development for actual 
simultaneous sharing of the same spectrum.
    Mr. Hatfield. I am not----
    Mr. Stroup. I will be more than happy to field that one.
    Mr. Boucher. All right, Mr. Stroup.
    Mr. Stroup. We have tested this on multiple occasions with 
members of the military and members of the public present. We 
are currently porting it over to several different radio 
systems. Our expectation is that those radios are going to be 
ready for testing next year and deployed into the field no 
later than the year 2012.
    Mr. Boucher. So there is nothing commercially available 
today that would enable simultaneous use of the spectrum by 
multiple users but you are saying this technology is under 
development and ready for testing essentially next year?
    Mr. Stroup. I would suggest that it is beyond the level of 
testing and is now being deployed into radio systems or being 
developed into radio systems. Within the commercial sector, we 
have initial licensing agreements with two different companies 
to use it within the TV white spaces. Our expectation is that 
upon conclusion of that rulemaking proceeding, the development 
of those rules, that sometime within the next 18 months that it 
will be deployed.
    Mr. Boucher. Any other comments, Mr. Calabrese?
    Mr. Calabrese. Yes. You know, as you have heard from three 
of us, there seems to be a far greater opportunity in terms of 
quantities of spectrum to open it up on a shared or 
opportunistic basis, and there are a couple of important 
precedents at least to build upon. You know, one, I think you 
are aware is of course the military already allows shared use 
of certain radar bands so, you know, thanks in part to the 
jump-start broadband act that was over on the Senate side some 
years ago, the military agreed to open up the 5 gigahertz band 
based on the technology that uses, you know, dynamic frequency 
selection. In other words, the devices sense before they 
transmit, and if they don't detect anything like radar, then 
they operate there and they keep checking, checking, checking 
and they can get off real quick. The other even more important 
technological I think precedent here to build on is the order 
last year from the FCC on opening the TV white space for 
unlicensed sharing because what the Commission has required is 
a geolocation database so the smart devices will need to have 
GPS and Internet access. They look up and they get a list of 
available channels with conditions attached. And so we can 
build on that database that the Commission is about to create 
and add a lot of other frequencies over time that would have 
conditions attached to them.
    Mr. Boucher. That is very encouraging to hear. I would just 
note that the first commercial application of the white space 
technology is now occurring in my Congressional district.
    Mr. Calabrese. Right.
    Mr. Boucher. One other question, my time is expired, but I 
will ask if you have any brief comments about this. Are there 
shortcomings at the present time in the licensing and spectrum 
management processes that are employed by both NTIA and the 
FCC, and if you detect that there are any, do you have 
recommendations for how those processes could be improved? 
Anyone want to answer? Mr. Largent.
    Mr. Largent. I would just repeat some of the problems that 
have taken place in the AWS spectrum with some of our members 
as being a shortcoming that I think are addressed in both of 
these bills and I think are a definite step in the right 
direction.
    Mr. Boucher. All right. Thank you very much. Anyone else 
want to briefly comment on that? Mr. Hatfield.
    Mr. Hatfield. I would add that the Commission has done 
things in the past to encourage a secondary market so that--one 
of the problems with the existing system, it is centrally 
controlled and therefore there are a lot of rigidities built 
into it. The Commission to its credit has gone to the use of 
secondary markets where companies and so forth can lease 
spectrum, and that has not worked out quite as well as some of 
us would have hoped, so I think there is possibilities to 
continue to encourage the secondary market to reduce some of 
the rigidities associated with trying to centrally manage the 
resources.
    Mr. Boucher. Thank you, Mr. Hatfield.
    My time is expired. The gentleman from Florida, Mr. 
Stearns, is recognized for 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Largent, one of my questions for us is, when we had the 
auction and the DTV transition and we raised about $19 billion, 
the bill that Mr. Barton sponsored and I was cosponsor, I think 
it became the backbone of the fourth-generation wireless 
service. Now, that was one approach. Now, the other approach 
appears to be the stimulus package. They put in $7 billion to 
provide grants, and I guess the question would be, the 
auctioning of the spectrum it appears to be would be a more 
efficient way to do it than just giving out the stimulus 
package. You might comment on the two approaches here and which 
one you think is more advisable.
    Mr. Largent. Well, let me just say this. The bottom line 
is, we need to have additional spectrum in the wireless space 
in order to meet not only the demands but the promise, the hope 
of the broadband world and so however you get to that point, 
that is subject to debate and can even become partisan, but the 
bottom line is, more spectrum is needed and sooner rather than 
later. The fact is, the last two tranches of spectrum that were 
allocated for wireless use, the AWS auction, 700 megahertz 
auction, both of those auctions took over 10 years to come to 
fruition. One was about 12 years, the other was 16 years to get 
it to come to fruition, and our thought is, is this is really a 
process that we are in the process of developing today that 
should have begun years ago if it still going to take somewhere 
between 12 and 16 years. So I guess the bottom line is, is that 
there is different ways to get to the bottom line but the 
important thing is to get to the bottom line and that is 
additional spectrum for the wireless industry.
    Mr. Stearns. The members of your association, are they 
going to benefit from this $7 billion in the stimulus package? 
I mean, I understand it is going to all go to develop the 
wirelines but do your companies see it as a positive?
    Mr. Largent. I would say that the majority of the money 
that has been allocated is not going to the companies that are 
in our association.
    Mr. Stearns. You mentioned just briefly, the chairman 
talked about T Mobile and then the spectrum reallocation you 
sort of indicated the problem in the transition, and I 
mentioned in my opening statement. I would think if we want 
other commercial carriers to compete and get involved, this 
would be a flag to them that if it is going to take too long 
they have got this investment I think of over $4 billion. I 
mean, how long can they continue to deal with that 
procrastination? So I mean, you might give us some ideas on 
what can be done to improve this reallocation timeframe and 
perhaps what we in Congress should be aware of.
    Mr. Largent. Well, actually, the second bill that we are 
talking about today, 3019, actually goes to that subject, that 
once the spectrum is identified, the spectrum is auctioned, 
then getting the people that are on the spectrum off the 
spectrum more expeditiously is really helped by this particular 
bill that we are talking about today. So, you know, my hat is 
off to you. I think Congress has----
    Mr. Stearns. So you think that will do it?
    Mr. Largent [continuing]. Gone forward, made mistakes, 
recognized those mistakes and is now trying to correct them, 
and that is a real positive movement.
    Mr. Stearns. And you feel pretty comfortable that will 
solve the problem?
    Mr. Largent. No, I am not positive it solves all the 
problems that are involved but it solves the problems that we 
know of with the auction process that took place 2 years ago.
    Mr. Stearns. Mr. Hatfield, what steps can be taken to make 
more efficient use of commercial and government spectrum that 
is already deployed?
    Mr. Hatfield. In my written statement, I go through the 
list of sort of five techniques that can be used, and the two 
probably that haven't been talked about as much here is, one, 
more technical efficiency. It is like getting more miles per 
gallon on your car. I mean, there are sort of two ways we can 
improve our transportation efficiency. One is by more miles per 
gallon or by carpooling, for example, and sharing that we have 
talked about here is the carpool analogy but we also need to 
look at ways of more efficiently using the spectrum, getting 
more bits per second per hertz, as I would say in technical 
terms. And there are a couple ways of doing that. One is 
through compression, reducing the number of bits that have to 
be sent. The other is using more efficient modulation 
techniques. What scares me as an engineer is those techniques 
only look like they can provide us with incremental 
improvements, and I am not saying we shouldn't do it, we 
absolutely should because it is crucial, and they are 
happening, but the difficulty is, they are probably not going 
to be adequate. So that leads us then to the need for more 
sharing or reallocation.
    The other way, just to complete the thought, is through 
more intense reuse of the spectrum. For example, with your cell 
phone, the tower may be 2 miles away and therefore you are 
taking up an area with a 2-mile radius. If you shrink the cell 
down, then you can reuse that same channel more and more times 
in a city like D.C., so you can use the same channel several 
hundred times. And so you can see the cellular carriers have 
made enormous investments in more cell towers. That helps a 
lot. As you can keep getting the cell smaller, of course, then 
you have to get that information in the cell tower back to some 
central location and that is where I believe your broadband 
policy of getting fiber out there intersects with the wireless 
industry because the wireless industry needs to get the 
wireless data back to their central point and that requires 
broadband facilities. So I think there is a real link here 
between what is being done in the broadband policy and the 
wireless industry.
    Mr. Stearns. Mr. Chairman, I don't have any further 
questions but I thought Dr. Johnson might want to comment if he 
wanted to on the same question.
    Mr. Johnson. The commercial receiver standards, the 
military already has these standards for radars but none of 
those standards exist for commercial systems so there may be 
opportunities to take advantage of some of those standards that 
have been developed.
    Mr. Boucher. Thank you very much, Mr. Stearns.
    The gentleman from Michigan, Chairman Dingell, is 
recognized for 5 minutes.
    Mr. Dingell. Mr. Chairman, thank you.
    I would like to welcome our panel, particularly Mr. 
Largent, our former colleague and friend. Welcome back.
    I have some questions. Since there are so many, I have to 
do all this with yes or no's. Mr. Largent, yes or no, has CTIA 
or anyone else conducted usage studies which measure actual 
traffic to see if the spectrum is being used?
    Mr. Largent. Are you talking about the spectrum that has 
been allocated for commercial mobile wireless?
    Mr. Dingell. Just have spectrum studies been completed to 
tell us whether the spectrum is being used.
    Mr. Largent. I am not sure I understand the question, sir.
    Mr. Dingell. Has anybody made any studies to find out if 
the spectrum is properly being used? CITE, FCC, anybody?
    Mr. Largent. Well, what I can tell you is, that the 
commercial mobile wireless spectrum that we have available to 
this industry today is used more efficiently than any other 
country of the world.
    Mr. Dingell. I am going to take that as a no and I thank 
you for that. Now, do all CTIA carriers operate at full 
capacity on their allotted spectrum today?
    Mr. Largent. No, sir.
    Mr. Dingell. Has FCC conducted any usage studies which 
examine whether the spectrum either by your members or anybody 
else is being properly and adequately used with regard to that 
spectrum which is assigned to them?
    Mr. Largent. I am not aware of any.
    Mr. Dingell. So the argument seems to be here I think that 
you have enough spectrum for now but will need it 10 years from 
now or at some future time. Is that correct?
    Mr. Largent. We have enough spectrum for right now but we 
will need spectrum before 10 years.
    Mr. Dingell. And I thoroughly agree with you. Our problem 
here is to see how we are going to get that spectrum 
efficiently allocated, because as you will remember from your 
time on this committee, we had a serious problem with regard to 
the fact that the spectrum was just thrown out by the FCC and 
by the government to be sold for budgetary reasons as opposed 
to addressing the proper use of the spectrum.
    Now, to all witnesses starting on your right and my left, 
how do you view H.R. 3125 and H.R. 3019? Do you view it as 
complementary to the FCC's work to develop a national broadband 
plan, yes or no? Starting on your far right, if you please, 
sir.
    Mr. Hatfield. A simple yes or no answer? Yes.
    Mr. Dingell. Mr. Largent?
    Mr. Largent. Yes.
    Mr. Dingell. Sir?
    Mr. Calabrese. Yes, very much.
    Mr. Dingell. Sir?
    Mr. Smith. The answer is yes but I believe it could be 
expanded.
    Mr. Dingell. Next witness, please, sir.
    Mr. Johnson. No.
    Mr. Dingell. No? And the last witness?
    Mr. Stroup. Yes.
    Mr. Dingell. Now, if the completion of national broadband 
should be delayed pending enactment of H.R. 3125 and H.R. 3019, 
how long should such delay be, starting again on your far right 
and my far left. How long could or should that delay be?
    Mr. Hatfield. I think the requirement is so great that we 
do not want to wait pending taking some of these steps pending 
the inventory.
    Mr. Dingell. Mr. Largent.
    Mr. Largent. And I would agree with that. The sooner the 
better.
    Mr. Dingell. Next witness, please.
    Mr. Calabrese. Yes. Likewise, there are bands and things--
--
    Mr. Dingell. How long should the delay be while we wait for 
those studies to be completed, next witness.
    Mr. Smith. Chairman Dingell, the answer is, delay is not 
good but delay is frankly better if you don't have the right 
information, so if you need the right information, delay may be 
necessary.
    Mr. Dingell. Yes, I am no special pleader for delay. My 
concern is that if we do this, we do it well, and I am not 
satisfied that up until this time we have been doing these 
things well and I am very much troubled that we will expand 
that bad history by again doing things poorly----
    Mr. Johnson. We agree with that.
    Mr. Dingell [continuing]. And winding up with a mess on our 
hands because we have built upon a faulty edifice. Next 
witness, sir.
    Mr. Stroup. We would recommend moving forward with the 
spectrum inventory including the actual measurements, which 
will help identify bands that are particularly useful for 
spectrum sharing.
    Mr. Dingell. All right. Mr. Chairman, I note I am 4 seconds 
over my time and I yield back with thanks to you.
    Mr. Boucher. Thank you very much, Chairman Dingell.
    The gentleman from Oregon, Mr. Walden, is recognized for 5 
minutes.
    Mr. Walden. Thank you very much, Mr. Chairman. Again, thank 
you for this hearing. I want to thank the witnesses for your 
testimony as well, all of you, and especially Dr. Johnson. I 
appreciated your technical counsel on the legislation as well.
    Senator Smith, I want to go to you regarding this notion 
put forth by the distinguished scholar in residence at the FCC 
for First Amendment and spectrum, Dr. Benjamin. In his paper, 
and this is just from May of this year, he writes, ``The most 
obvious desirable regulations are probably those that are pure 
dead weight loss, regulations that cost broadcasters 
significant amounts of money but have no impact on their 
behavior. This category would include onerous record-keeping 
requirements, ascertainment requirements, et cetera. These are 
unlikely to have any impact on programming and thus will likely 
be pure cost.'' His thesis is in this paper which I will ask 
unanimous consent to put in the record called ``Roasting the 
Pig to Burn Down the House: A Modest Proposal,'' is to make it 
so costly on broadcasters that they surrender their spectrum, 
and I find it an abomination, I find it offensive. I don't 
quite understand why he is now in this position at the FCC, and 
I will follow up on that. But given the fact that we just went 
through a $2 billion DTV conversion and you are on the cusp of 
a digital television technology that is mobile and you make the 
argument in your statement about how every new subscriber to 
that free over-the-air digital mobile service makes that even 
more efficient because you are not adding to the stream. If we 
follow Professor Benjamin's counsel or the FCC does, aren't we 
just throwing that $2 billion into a paper shredder?
    Mr. Smith. Congressman, yes, you are throwing $2 billion of 
U.S. taxpayer money away. You are throwing away potentially 
untold billions that the U.S. citizens have spent in 
detrimental reliance upon the Congressional urging of the 
digital transition. Suffice it to say, my phone has been 
ringing off the hook ever since this gentleman's work has been 
revealed. That said, I think what he does is simply try to 
monetize highest and best use in pure dollar terms, 
disregarding all the other public values that are served 
through localism, local news, local sports, local weather. 
These are things that I think, you know, particularly when it 
comes to emergency information, Amber Alerts, how do you 
monetize that? And I am hesitant to say it, but when it comes 
to broadcasting and the broadcast airwaves, they have always 
been a public option to make sure that everybody gets served, 
and he seems to be suggesting that that maybe should be 
yesterday.
    Mr. Walden. Dr. Johnson, I raised the issue in my opening 
statement about the amateur radio broadcast service, and I 
failed to disclose that Mr. Ross and I are the two licensed 
amateur radio operators which gives us license to be real hams 
and politicians, and I am just curious as you look at the 
spectrum from a technical perspective, what should amateur 
radio licensees be concerned about and what threats and value 
do you see in that spectrum?
    Mr. Johnson. I won't be able to give you a full detailed 
answer because I have not looked at that particular issue in 
detail. I would support, however--and I also am a ham radio 
operator.
    Mr. Walden. Oh, very good.
    Mr. Johnson. I would support, however, your thesis that the 
ham bands have been an important backup system for the Nation's 
security and I think they are also a valuable resource for 
citizens who have an interest in that kind of technology, and 
although there are other avenues to address those same issues 
now outside of the ham bands, I think they are still important 
and we would be happy to look at the technical details of the 
challenges to that particular band.
    Mr. Walden. Mr. Hatfield, do you have any comment on the 
amateur radio band? And tell me you are a ham radio operator 
too, would you?
    Mr. Hatfield. You know, I think my license just expired but 
the way I got into this business was starting as a ham. I think 
I was 13 or 14 years old, something like that. I think the 
problem that the amateur radio community has is that they do 
provide a very, very vital final sort of backup communication 
network that is just absolutely--it is totally decentralized so 
there is nothing central that can fail, and that is really 
critical. The problem is, if you tune across the band, so often 
they are idle, and if somebody was really clever, maybe we 
could figure out ways that we could do a little bit of sharing 
there that would not diminish the amateur opportunity at all 
for use in emergencies but in non-emergency times might be used 
for some other vital public interest purposes as well.
    Mr. Walden. Mr. Chairman, I know my time is expired and I 
am going to excuse myself. Mr. Buyer is going to take over for 
our side. We have a classified briefing with the Secretary of 
State and Secretary of Defense on Afghanistan and Pakistan that 
I am going to go to. So again, I thank you for your testimony 
and look forward to working with all of you and others on this 
issue as we move forward in a thoughtful and constructive way 
on appropriate use of spectrum. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Walden.
    The gentleman from Indiana, Mr. Buyer, is recognized for 7 
minutes. Oh, I am sorry, Mr. Buyer, if you can withhold, I need 
to go in order here. The gentleman from California, Mr. 
McNerney, is recognized for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I will try to be 
brief here.
    First of all, I want to thank the panel. I found the 
testimony very informative, and I didn't hear anyone say well, 
no, I don't like this legislation. I think Dr. Johnson had a 
little reservation about some of the definitions so I 
appreciate that, and I am going to ask you in a minute to 
expand on that. But first I want to say, expanding the range to 
10 gigahertz, there would seem to be a disagreement between Mr. 
Calabrese and Mr. Hatfield on that, and I am not sure exactly 
why you would think that going up to 10 gigahertz isn't that 
useful, Mr. Hatfield. Is it Dr. Hatfield or Mr. Hatfield?
    Mr. Hatfield. My doctor is honorary, so----
    Mr. McNerney. OK. Well, that is good enough for me. Dr. 
Hatfield.
    Mr. Hatfield. I think the answer is, there may be some 
confusion. It is the range up to roughly 3 gigahertz that is 
really critical to people like the cellular industry, so that 
is the most critical. On the other hand, if some of the 
services we might want to relocate could go higher, it would 
still work OK if they went higher in frequency so therefore I 
think you can make an argument that we ought to look all the 
way up to 10 to see if there are any opportunities, for 
example, that some could be reallocated from below.
    Mr. McNerney. So there are physical limitations after 3, 
say, line of sight and so on?
    Mr. Hatfield. Yes, that is correct for mobile applications. 
Now, for certain radar applications, for example, being up 
there where you have line of sight, it might work perfectly 
fine. So that is what I think is perhaps the basis for the 
difference. I would support going up higher for that purpose 
but we mustn't kid ourselves. There are technical limitations 
that would prevent it from being used for certain applications.
    Mr. McNerney. Thank you.
    Dr. Johnson, you did mention the idea that there is no 
single metric for efficiency. Is there anyone out there that 
you are aware of or that would be useful or sort of a set of 
definitions?
    Mr. Johnson. We think that a single definition like 
intensity of use is not appropriate. We propose using a variety 
of metrics that correspond to the critical parameters related 
to the particular system and application that is being used. 
For example, metrics for communications systems would be 
different than those for radar systems.
    Mr. McNerney. So are you going to supply the committee with 
that information?
    Mr. Johnson. We would be pleased to work with the committee 
to develop those metrics, absolutely.
    Mr. McNerney. I will be interested to work with the 
committee on examining that metric definition.
    The last thing I have is the notion that the paper 
inventory isn't going to be adequate, and I didn't quite 
appreciate that. You know, I come from a technical background 
and I was a test engineer and a field tester, but when Mr. 
Stroup showed the graphs with all those blank spaces, people 
that own spectrum are going to say well, jeez, we use all of 
it, we don't need to reallocate and so we are going to need to 
actually do quite a bit of testing to validate, and it seems to 
me like a fairly--just on the basis of what was spoken here 
this morning, a fairly big task to really judge how much 
spectrum is available out there. Could you comment on that?
    Mr. Stroup. Yes, Congressman. We submitted some suggestions 
in our written testimony as to some short-term approaches as 
well as longer-term approaches. We would recommend 
approximately 10 to 20 stations supplemented by mobile testing 
and an overall longer period of time and a larger number 
perhaps in conjunction with universities and other 
organizations to be able to compile an ongoing inventory of how 
the spectrum is actually being used.
    Mr. McNerney. That is going to take a lot of resources, a 
lot of time and a lot of money. Even what you have called a 
shortcut seems like a fairly big undertaking.
    Mr. Stroup. I believe that the NTIA and other 
organizations, the National Science Foundation are already 
compiling this information so some of it is there. Our studies 
or many of our studies are already available publicly and can 
be integrated into this database, so it is not as large an 
undertaking as it may seem but I do agree that overall long 
term there is a great deal of data that will be compiled. The 
Illinois Institute of Technology is actually conducting ongoing 
studies in Chicago. They have over 2 terabytes of information 
that has already been collected from that location.
    Mr. McNerney. Mr. Calabrese.
    Mr. Calabrese. I mentioned in my written statement that the 
costs are really coming down for doing this so, for example, 
Offcom, which is, you know, the British telecom regulator, 
recently completed a nationwide drive test of their airwaves. 
They mount measuring devices just on the rooftop of a national 
vehicle fleet, which we could do with the Postal Service or 
whatever, and then, you know, that gets downloaded over wi-fi. 
There are also very inexpensive devices now to have a 
monitoring network. That is being field tested in the D.C. area 
fairly soon by a company. We are hoping to have one on the roof 
of our building downtown.
    Mr. McNerney. My time is expired. Mr. Hatfield, do you have 
a very quick response?
    Mr. Hatfield. Just as I say in my written testimony, I said 
one of the things we can do is focus on those bands which look 
the most promising, so do the measurement first on the most 
promising. Second--well, why don't I just stop there.
    Mr. McNerney. I guess it comes down to one of our favorite 
Presidents saying ``trust and verify.'' Thank you, Mr. 
Chairman.
    Mr. Boucher. Thank you very much, Mr. McNerney.
    The gentleman from Indiana, Mr. Buyer, is recognized for 7 
minutes.
    Mr. Buyer. Thank you.
    Mr. Largent, are you familiar with this latest GAO report 
that came out titled ``FCC Needs to Improve Oversight of 
Wireless Phone Service''?
    Mr. Largent. I have not read the entire thing but I am 
aware of it.
    Mr. Buyer. Are you aware of the recommendations of GAO? GAO 
recommended that the FCC, number one, improve its outreach to 
consumers about its complaint process, related performance 
goals and measures and monitoring complaints; number two, 
develop guidance on federal and State oversight roles; and 
three, develop policies for communicating with States. Are you 
familiar with the three recommendations?
    Mr. Largent. Well, I am more familiar with the facts that 
they uncovered first that was in that report that showed that 
84 percent of----
    Mr. Buyer. That is where I am going. You are getting ahead 
of me.
    Mr. Largent. Oh, sorry.
    Mr. Buyer. Let us just go right there. I mean, what I am 
asking is, they have these recommendations based on, and so I 
want to ask you to comment about what they are based on. I 
mean, my gosh, when we look at all the choices that consumers 
have here going into the Christmas shopping season and the 
levels of satisfaction, would you please comment on the basis 
and the facts that they relied on for these recommendations?
    Mr. Largent. Well, I think it is not the way I would have 
written the report based upon the statistics that they found in 
the study. Knowing this industry as I have for the last 6 years 
and seeing the consumer complaints decline every year and the 
consumer satisfaction go up every year, we feel like that that 
is a movement in the right direction. Eighty-four percent 
approval by our consumers is not good enough for us. We 
continue to want to raise that even more but it is a heck of a 
positive mark for the industry and I hope to be able to sit 
before you in a year or two and be able to talk about how we 
are no longer 84 percent, we are even higher today. But, you 
know, I think that the report did highlight some things that 
the FCC can be about that would improve their service but the 
bottom line is, is that I think it is a star for the wireless 
industry to show the improvement of our service for our 
customers.
    Mr. Buyer. Regarding your member companies when they make 
strategic judgments in competition, wouldn't consumer 
satisfaction be one of those important elements?
    Mr. Largent. Absolutely. It is the key statistic that they 
look at all the time.
    Mr. Buyer. You know, I get excited when I listen to my good 
friend Mr. Markey share his excitement about competition in the 
marketplace, and so I would share with my good friend Mr. 
Markey, when you rejoice in competition in the marketplace and 
what it is bringing consumers relative to choice, do not be so 
eager to get more government control if in fact the marketplace 
is driving consumer satisfaction.
    The other point I would like to, if I had a little 
latitude, Mr. Chairman, because I am also cosponsor of this 
legislation, I would like to kind of shift gears and turn to 
Mr. Smith and ask a particular question, and matter of fact, it 
may drive, Mr. Chairman. I think we should take a really good 
look here at Comcast and NBC. So I am going to ask a question 
about Comcast and NBC, Mr. Smith. I have got some concerns 
about your member companies out there. I have got concerns 
about consolidation in the marketplace. I have got concerns 
about what type of new business model does this bring, what is 
its impact and how does it drive a new model for advertising. 
You held up your phone and you talked about this as a 
multimedia platform. As we have a marketplace as you try to 
judge into the future, it is all about individualizing of 
advertising, and I can almost see if we are going to permit the 
marketplace to begin to mine and profile people that pretty 
soon even advertising how it is even driven not only upon a 
web, you could almost have individualized advertising occurring 
upon TV. So as I try to think about in the future and how a 
vertical integration is this kind of deal when you have this 
many eyes of Comcast and being able to control content, it 
almost turns our present business model inside out, upside 
down. I welcome your comments on mine.
    Mr. Smith. Congressman, some of my members are for it, some 
of them are very concerned about it, and I am with my friends.
    Mr. Buyer. Very good, Senator.
    Mr. Smith. The NAB has not taken a position on this at this 
juncture. We are simply going to watch and see what kind of 
conditions develop but we are very attuned to the issue and the 
problems that you just cited.
    Mr. Buyer. You know, the Supreme Court long ago talked 
about the importance of having diversity out there among our 
media, and that was back in the 1940s, with regard to ideas. I 
mean, if I were one of your member companies and I am a small 
company and I have a couple of NBC affiliates and maybe a CBS 
affiliate, can't you relate to their concerns even about 
retransmission rights and fees and what impact is that going to 
have or upon others whereby is there going to be cost shifting 
because of this vertical integration?
    Mr. Smith. Well, obviously I am more than interested. I 
answer their phone calls because, yes, they are concerned with 
the very issues that you identify, but I assume that the FTC, 
the FCC and the Department of Justice will look at all of these 
things and propose conditions if this is to go forward at all. 
And at this juncture, it is the feeling of the association that 
we should allow the process to work.
    Mr. Buyer. One of the concerns I have, Mr. Chairman, and 
why I would encourage you to place your eyes and considerations 
on this issue is defined by the silence. When there is silence 
in the marketplace because of this type of deal, that tells me 
that there is great concern in the marketplace and fear that if 
in fact a company were to come out and come against this type 
of merger, what type of repercussions in the marketplace would 
in fact occur. So the fact that there is silence out there is 
beginning to bother me, Mr. Smith, that a lot of your member 
companies while they may confide in that phone call with you 
that there is a reason that they are not coming out publicly 
because they don't want to get jammed in their negotiations. Am 
I close here?
    Mr. Smith. Well, I think they are very interested observers 
of this process and they share the concerns you have expressed. 
Again, we have networks, we have affiliates. They are have most 
issues in common but this is one where there needs to be an 
accommodation, an understanding and a legal structure put in 
place that allows both to survive.
    Mr. Buyer. Mr. Chairman, I would just encourage us to put 
our eyes to have a better understanding so that we can try to 
see over the horizon the impact that this type of merger is 
going to have on a multimedia platform and advertising model.
    Mr. Boucher. Thank you very much, Mr. Buyer. Let me assure 
the gentleman that our subcommittee will conduct at least one 
hearing on the Comcast NBC acquisition at the appropriate time 
next year. That announcement has already been made, and the 
gentleman is quite right in expressing the need for us to focus 
on this very carefully. It is certainly our intent to do so.
    The gentleman from Michigan, Mr. Stupak, is recognized for 
5 minutes.
    Mr. Stupak. Thank you, Mr. Chairman. I apologize to our 
witnesses for not being able to hear their testimony. I was in 
with constituents and had to take a couple of other meetings.
    Mr. Largent, I have a question for you. Recognizing the 
challenges that Congress and the FCC will face in trying to 
relocate as much spectrum as possible, are companies within the 
CTIA exploring the possibility that a dynamic spectrum access 
that Mr. Hatfield suggested as a possible solution?
    Mr. Largent. I would say our companies are at a point where 
they are exploring every opportunity, every option that is 
available to them including how to utilize their own spectrum 
that they currently have, use it more efficiently and look at 
every other avenue that is available to them in the years ahead 
to access more spectrum.
    Mr. Stupak. Are any of the companies within your 
organization using the dynamic spectrum access? I mean, are any 
of them trying to borrow, if you will, during a peak time 
surrounding system? Is that going on now?
    Mr. Largent. I am sure they are looking, as I said, at 
every option that is available to them.
    Mr. Stupak. Mr. Smith, good to see you and thanks for being 
here. Let me ask you this one. I think it is important that we 
look for or search for a solution to the spectrum crisis that 
preserves free over-the-air broadcasting while fostering 
wireless broadband deployment. In your testimony, you cite how 
the use of white space spectrum in rural America is a way to 
support both of these public interest goals. Is this solution 
workable in urban centers as well?
    Mr. Smith. It may well be. However, we do have a concern 
about interference and want to make sure that we don't degrade 
other signals.
    Mr. Stupak. Let me ask you this. Has NAB conducted any 
studies that show how much spectrum is needed to fulfill future 
business plans of mobile TV, multicasting and HD television? 
Have you done some studies?
    Mr. Smith. We are doing a study right now on that very 
question because we understand the importance of this issue and 
want to have the best information possible.
    Mr. Stupak. Any idea when that study may be done?
    Mr. Smith. I don't have a date but I will get that to you, 
Congressman.
    Mr. Stupak. OK. Thanks.
    Mr. Hatfield, we talked a little bit about the spectrum 
crisis. Do we only have to worry about that for the high 
population centers or is this a national issue? I mean, in my 
rural area, we have a lot of places where we don't have 
anything, so----
    Mr. Hatfield. Exactly. It is primarily a large urban area 
issue, and even within that urban area there are some real 
hotspots. An example would be a football stadium on Sunday 
afternoon. Having said that, I think I tend to divide the 
problem into two parts, and that is the urban problem and the 
more rural problem, and we need these more dynamic ways to be 
able to use the spectrum in the rural areas that is not needed 
because of the lack of population density.
    Mr. Stupak. Well, let me ask you this. Is more access to 
spectrum the only issue the FCC and this committee should be 
focused on or are there other efficiency gains that can be 
explored with next-generation smart phones?
    Mr. Hatfield. As I indicated in my written testimony, I 
don't hold out an awful lot of hope for some of the traditional 
solutions for the major urban areas, but there are certainly 
the examples that I gave like compression and so forth that we 
should be pursuing. I don't think those technical solutions 
solve the problem completely.
    Mr. Stupak. Well, if we start using these smart phones, 
wouldn't the manufacturers sort of help alleviate some of these 
problems we are going to see with trying to free up more 
spectrum? Can that be a solution? Can we find it more in 
manufacturing as opposed to the FCC and government?
    Mr. Hatfield. I don't see how the handsets by themselves 
can do an awful lot to improve with the exception of the sort 
of dynamic spectrum access where the handset is smart enough 
that is looking around to see what other spectrum might be 
available and moving to it so we can use the intelligence in 
the handset to find additional spectrum. I am not sure how 
intelligence in a handset will improve the efficiency of 
existing spectrum use beyond sort of incremental improvements.
    Mr. Stupak. Mr. Calabrese, did you want to add something on 
that?
    Mr. Calabrese. Yes. You know, I talk in my written 
statement about the importance of encouraging hybrid networks 
because, you know, as Dale said, we are reaching the limits, 
the technical efficiency limits. We are also reaching limits in 
terms of how close the carriers can bring cell sites and 
backhaul to the consumer so you need to shrink the cell size, 
get more refuse, and one way to do that is, right now we have, 
you know, pending at the FCC are rules to extend the cutter 
phone device choice to wireless, and when consumers have the 
choice of any device, the devices increasingly will be of a 
type that they will decide on the fly what is my most 
economical path, and in most cases that will be, like in a 
place like this, at home, in offices and public spaces, it will 
be over unlicensed spectrum into local backhaul, into consumer-
provided backhaul, and that will offload a lot of traffic from 
carriers.
    Mr. Stupak. Thank you, and thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stupak.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Mr. Hatfield, you are talking here about capacity for 
dynamic sharing of a spectrum so that we can make more 
efficient use of currently allocated spectrum. What percentage 
of our spectrum needs do you think can be satisfied just by use 
of dynamic sharing?
    Mr. Hatfield. I have not looked at it, candidly, in that 
sort of quantitative way but I think--well, I am not going to 
answer you very satisfactorily. But I think it is sufficient 
enough that it would be a significant help. I don't think it 
gets us all the way there.
    Mr. Markey. So what you are talking about here is something 
which is supplemental to what the needs are going to be in the 
future but not a substitute for transfer of spectrum in order 
to deal with the issue. Is that right?
    Mr. Hatfield. I guess I would put it slightly different. I 
think we are probably going to need to use all of these 
different techniques.
    Mr. Markey. Well, yes. I use polysyllabic words and you put 
it in very simple English. We will have to use everything.
    Do you agree with that, Mr. Largent? This reminds me a 
little bit of a discussion of CAFE standards, you know, 
improvement of efficiency of vehicles or appliance efficiency 
where we are saying can we use new technology here to get 
better efficiency out of these automobiles or out of the 
appliances which we use but at the same time you also want to 
do the research on all new technologies, you know, all electric 
vehicles, whatever to move out of the old technologies, and 
that is kind of what of we are talking about here: how do we 
get the additional spectrum but also squeeze out the maximum 
efficiency out of the old technology. So how do you view it, 
Mr. Largent?
    Mr. Largent. Well, I would say I have a chart here that I 
will submit for the record and give to you if you would like to 
look at it but it basically talks about how efficient different 
countries utilize the spectrum available to them, and in the 
United States we have 270 million consumers and we use per 
megahertz 660,000 consumers per megahertz of spectrum used, and 
that is the most efficient by a factor of at least two of any 
other country save Mexico actually. They have 79 million users 
there. But we absolutely are using our spectrum available to us 
in the most efficient way possible and sometimes by a magnitude 
of two.
    Mr. Markey. Mr. Smith.
    Mr. Smith. Your question to us about----
    Mr. Markey. About this balance between squeezing 
efficiencies out of the old technology as opposed to moving 
over a spectrum to augment what we now have allocated so that 
we can maximize the wealth-generating opportunities.
    Mr. Smith. I think it is one of the miracles we have before 
us is how much more efficiently we are using the spectrum now 
and certainly broadcasting has invested billions to achieve 
that efficiency. I do believe because we have seen the 
explosion you spoke of at the beginning of the hearing, 
Congressman, that there are going to be compression 
technologies that will provide some of the answer here so that 
we can preserve the broadband and the broadcast values that the 
committee seeks to serve.
    Mr. Markey. Thank you.
    Dr. Johnson.
    Mr. Johnson. Yes, Congressman, I would like to make a 
couple comments. First of all, the Department of Defense, one 
of our principal customers, is driven toward increasing 
efficiency. We mentioned briefly in my testimony the use of 
unmanned aerial systems and streaming video and the 
intelligence, surveillance and reconnaissance needs in Iraq and 
Afghanistan that are driving that efficiency as they are with 
the commercial market. Lockheed Martin has developed spectrum 
management tools that are being used by our customers to 
increase that efficiency but I would also like to point out 
that in the federal, non-federal kind of binary view of things, 
it is really not that. It is not a binary view at all because 
it is important to realize the Department is a major consumer 
of commercial equipment and using commercial systems both 
terrestrial and space so they have to balance that 
accommodation between commercial and federal needs.
    Mr. Markey. Mr. Stroup.
    Mr. Stroup. Yes, I would emphasize that the military is 
deploying dynamic spectrum access. It is being built into 
several military radio systems.
    Going back to the question about utilization, emphasizing 
the point that you made regarding the PCS allocation 
proceeding, that spectrum was encumbered by over 1,500 
microwave apps which ultimately the PCS licensees received that 
via auction with the understanding that they could not 
interfere with them and we are recommending building on that 
model, being able to utilize the technologies available today 
where they may not actually have to be relocated but actually 
could share the spectrum.
    Mr. Markey. Yes, I think we have to be inflexible in terms 
of the goal which we are trying to reach here but flexible in 
terms of what the final combination looks like, but I think it 
will involve obviously substantial portions of both, increased 
efficiency and more spectrum as well, and we have to ensure 
that we encourage both to be maximized so that we do make 
ourselves as competitive as a Nation as we can looking over our 
shoulders at number two and three in the world, as you said, 
Steve, so we maintain this lead. So we thank you all very much.
    I thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Markey.
    The gentleman from Pennsylvania, Mr. Doyle, is recognized 
for 7 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    I just want to start by thanking all the witnesses but 
especially I want to thank Dale Hatfield for his years of 
dedicated public service and his assistance to policymakers and 
helping people across the country to better understand the 
technologies behind these issues. I never had a chance to tell 
him that personally and he is here and I want him to know that, 
so thank you, Mr. Hatfield.
    Mr. Largent, Mr. Smith, you both talk a lot about mobile 
video broadcasting, and I am curious, do you think people want 
to watch a limited number of channels at a set schedule on a 
device about this big or do you think they want to watch their 
choice of programs when they want to watch them, and should 
that consumer preference drive spectrum decisions?
    Mr. Largent. Well, I would say that from my personal 
experience, the older I get, the harder it is to watch 
television on a handset, but, you know, we are serving closer 
probably now 280 million customers in this country will 
probably be the statistic at the end of this year and I would 
say that there probably is consumer uptake of that particular 
service as it becomes available and it is available now.
    Mr. Doyle. Mr. Smith.
    Mr. Smith. Congressman Doyle, I don't believe they should 
be regarded as exclusive. I think we can do both. And I know 
young people are highly interested in mobile TV and I suspect 
many who don't have to wear these are as well. That said, I 
think it is very important that these new inventions like Hulu 
coming along are using broadcast content, it won't be many 
years until your laptop will have a broadcast signal too, and 
so it is not either/or. It is both.
    Mr. Doyle. But it seems to me--and I agree, I think it is 
young people because I couldn't watch TV on this either. But it 
seems to me those same people are the ones that don't want a 
set schedule. They want to watch their show when they want to 
want their show, and that being the case, you know, as we talk 
about where is the best place to allocate spectrum, it just--I 
just saw a note here, ``I want to watch the Steelers beat the 
Seahawks in real time.'' Right now the Steelers aren't beating 
anyone. Eddie, were you responsible for that?
    Mr. Smith. And Congressman, to that point, I hear your 
point but I also hear Congressman Markey's point. I hear people 
say no, I want to watch it when it is really happening and it 
is just part of being the American tradition, particularly when 
it comes to sports. People are very anxious to see it live in 
real time.
    Mr. Doyle. Mr. Hatfield.
    Mr. Hatfield. First of all, I want to thank you for your 
kind remarks earlier but I think as an academic stepping back 
from this, you have asked a very, very fundamental question. If 
people want to watch content simultaneously, than that old 
broadcast model is a very efficient way of doing it. If people 
want to watch individual things, then the more cellularized 
approach is more efficient. So here your decision or our 
decision is how that balance should be made, and of course on 
the broadcast side we probably have this additional public 
interest benefit that may sway the decision but I think from an 
engineering standpoint, that is the fundamental question, how 
much of it is individual choice and what time you want to watch 
it and how much of it do you want to watch simultaneously with 
other people in the country.
    Mr. Doyle. Does anyone else want to chime in on that? OK.
    I just have one other question. Mr. Smith, in the 
Pittsburgh area, roughly about 8 percent of the people in my 
region get their broadcast with rabbit ears, you know, over-
the-air broadcasting, and I was just curious if you have any 
numbers on how many people--yes, 8 percent watch with rabbit 
ears. How many people--do you have any numbers on how many 
people watch HDTV over the air with, you know, the rabbit ears 
versus relying on standard def? Is there any kind of figures 
like that?
    Mr. Smith. I have heard the range from 8 percent to 20 
percent but I think there are a couple of other factors that 
are important depending on your Congressional district. For 
example, Mr. Barton's district, it may go as high as 40 
percent, and over the air tends to be about people who are 
rural, who are poor, who are elderly, who have also invested in 
the digital transition.
    Mr. Doyle. Do you think they have HDTVs?
    Mr. Smith. I believe the figure of $25 billion, which is an 
estimate of what people have spent in the digital transition, I 
think many of them do now and they really like high definition 
and they don't want to see it degraded and they are beginning 
to really value the multicasting so that they get a religious 
channel, a weather channel, a Hispanic channel, a Korean 
channel. This is the miracle that is now made possible because 
we all did this and it is a very exciting future that I hate to 
see clouded by ill-considered ideas that pit broadband against 
broadcast. I do think in the fullness of time there will be 
technologies that will provide for both.
    Mr. Doyle. Thank you.
    Mr. Chairman, I have no more questions. I will yield back.
    Mr. Boucher. Thank you very much, Mr. Doyle.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 5 minutes.
    Mr. Inslee. Thank you.
    Mr. Largent, we know Americans are going to be looking at 
their cell phone much more frequently and on an hourly basis. I 
just wonder what suggestion you could give us on things we 
could do here or FCC to promote investment in the networks that 
are really going to be necessary. Just give your general 
thoughts about that.
    Mr. Largent. Well, number one, I would applaud what the FCC 
did in November by approving the tower siting initiative. We 
have been fighting this battle for a long time, giving local 
jurisdiction, States the ability to object to tower siting 
proposals but doing it in a timely fashion, and that goes a 
long way to helping this industry provide more service to this 
country, so I really applaud the FCC for their action on the 
tower siting. The two bills that we are looking at today are 
kind of the beginning of the process, the end of the process. 
The spectrum inventory bill looks at the possible spectrum that 
is out there, how it is being used and what spectrum could be 
identified for higher and better use perhaps. And then your 
bill comes in at the end of the process and says here is a more 
orderly fashion to move the current spectrum holders to their 
new spectrum and do it in a more efficient, effective way and 
do it faster, so both of these bills are good bills and go a 
long way to improving a process of acquiring additional 
spectrum which the wireless industry is sorely going to need in 
the years to come.
    Mr. Inslee. I want to make sure I didn't miss anyone. I 
didn't hear any good or even not-so-good constructive criticism 
of our bill, and I want to make sure I hadn't missed any. Does 
anyone have any suggestions on the bill I am working with Mr. 
Upton on that you would suggest to improve the product? We are 
always looking for good suggestions. This might be the first 
hearing in American history where there isn't any constructive 
criticism, so this is quite an achievement.
    Mr. Calabrese, you have suggested broadening the purpose of 
the spectrum relocation fund to support modernizing federal 
systems and allowing for a greater degree of band sharing. 
Could you give us any sense what you would be suggestive of as 
far as cost and what type of approach?
    Mr. Calabrese. It is very difficult to know the exact cost. 
In fact, I would assume probably, you know, first of all that 
the agencies that would be proposing to modernize their system 
to free up spectrum for sharing that they would be in a sense 
second in line. You know, there would first from that spectrum 
relocation fund the priority for those agencies that needed to 
migrate off a band so that it could be cleared for licensing as 
we did with AWS, you know, the fundamental purpose of your 
bill. But then secondarily, you know, like now we have 
remaining funds and then I think they should--agencies should 
be able to apply to the technical panel that you propose in the 
bill setting up which would then recommend to OMB which of 
those, you know, on a competitive basis which of those would 
have the greatest impact in terms of freeing up spectrum for 
the commercial sector or for spectrum efficiency, and it is 
really a great benefit because it would make those agencies 
more effective with more modern communication while also 
freeing up spectrum.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Inslee.
    I am going to ask unanimous consent on behalf of the 
gentleman from Nebraska, Mr. Terry, to insert in the record a 
letter concerning the subject matter before us of the 
Electronic Warfare and Information Operations Association. 
Without objection, that will be made a part of the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. And the gentlelady from California, Mrs. Bono 
Mack, is recognized for 5 minutes.
    Mrs. Bono Mack. I thank the Chair.
    I would like to ask a question of Dr. Johnson. In your 
testimony, you indicated that future government spectrum needs 
will be focused on high-bandwidth uses such as video for UAVs 
or high-altitude surveillance aircraft. Is that correct?
    Mr. Johnson. Yes, that is correct.
    Mrs. Bono Mack. Can you please provide an estimate of the 
percentage of the DOD's high-bandwidth video capacity used by 
UAVs and other surveillance aircraft that is currently provided 
by commercial satellite systems using spectrum above 10 
gigahertz?
    Mr. Johnson. No, I can't provide that but we can provide 
that after the hearing.
    Mrs. Bono Mack. Thank you. And do you believe that most of 
the future high-bandwidth video capacity for the UAVs also will 
use spectrum above 10 gigahertz?
    Mr. Johnson. I don't know the answer to that.
    Mrs. Bono Mack. OK. Thank you. If I can get the answers in 
writing after the hearing, that would be great.
    At this point I would like to yield the balance of my time 
to my colleague, Steve Buyer.
    Mr. Buyer. Thank you very much. The question I have--and I 
thank you for yielding--is about the delays in the delivery of 
spectrum and its impact on delivering commercial systems. So 
when you look back even back in 2006 when T Mobile paid a lot 
of money out there, $4.2 billion, for spectrum, you know, we 
are 5 years down range now and we still don't have systems 
being delivered, and so when we lay out these timelines for the 
delivery and they are not met, so I look at this legislation 
before us and I am interested in your opinions if I were to 
offer an amendment, and Mr. Markey talks about giving 
encouragement. What about if I were to offer an amendment that 
has a penalty clause so that if a government department or 
agency does not deliver the relocation at the timeline that is 
specified whether it is classified or unclassified, then that 
department or agency is to pay interest on the monies relative 
to where that spectrum is located? So you can figure out what 
the economic impact would be, so if DOD says well, it is too 
difficult for us to deliver the spectrum from Mobile, 
Pensacola, to Jacksonville because we have our classified 
issues. Well, deal with it then. Tell us what they are. You 
said you could deliver on a particular date, then deal with it. 
And so I am interested if I were to offer such an amendment as 
an incentive, because if we ask for these companies to put 
billions of dollars--you are asking for the next auction. We do 
the next auction. Government takes the money and we use the 
money yet aren't delivering when we said we would.
    And so in the end, Mr. Smith, you talked about public 
values. Public values are based upon virtues. If you are going 
to have a deal, you can't have a deal without fidelity and 
fidelity requires two people, and so if government is not 
upholding its fidelity, then maybe we should have an 
encouragement clause called a penalty clause. What are your 
ideas, your thoughts, Mr. Largent?
    Mr. Largent. Well, I like your thinking going into this but 
I would prefer--I mean, I am just thinking about this 
freewheeling right now so I wasn't prepared for the question, 
but as I think about it, I think perhaps you could build 
incentives for the people that are moving off the spectrum to 
get off so that you give them the spectrum relocation money. 
You would give them, you know, some amount of money if they are 
off in a year and you give something less than that amount if 
they are off in 2 years, so you give them more money to 
relocate the faster they are able to relocate as opposed to the 
same amount of money whenever they relocate.
    Mr. Buyer. Well, we can incentivize and penalize, right?
    Mr. Largent. We like incentives.
    Mr. Buyer. I understand.
    Mr. Smith?
    Mr. Smith. Congressman, NAB really doesn't have a dog in 
the fight, so to say, but having said that, I applaud the way 
you are thinking because I think it would have the effect of 
incentivizing more interest in spectrum auctions if they knew 
that there was a two-way street and they would be treated 
fairly.
    Mr. Buyer. Thank you. I would like to explore this idea 
with not only my colleagues but with you on how we can build 
this into this piece of legislation. Thank you. I yield back.
    Mr. Stupak [presiding.] I would have to put a second degree 
amendment on your amendment and we would have to punish all 
Members of Congress who spend that spectrum money five times 
over.
    Mr. Buyer. I agree with you.
    Mr. Stupak. And with that, I think we will close this happy 
hearing. Thank you to all of our witnesses. Have a good holiday 
and thank you for being here.
    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4860A.081
    
    [GRAPHIC] [TIFF OMITTED] T4860A.082
    
    [GRAPHIC] [TIFF OMITTED] T4860A.083
    
    [GRAPHIC] [TIFF OMITTED] T4860A.084
    
    [GRAPHIC] [TIFF OMITTED] T4860A.085
    
    [GRAPHIC] [TIFF OMITTED] T4860A.086
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
